<html>
<title> - LAND ACQUISITION FROM WILLING SELLERS; TRAIL OF THE ANCIENTS; STUDY OF FOUR NATIONAL HISTORIC TRAILS; AND WILLING SELLERS FOR THE MAJORITY OF THE TRAILS IN THE SYSTEM</title>
<body><pre>[Senate Hearing 108-47]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-47

LAND ACQUISITION FROM WILLING SELLERS; TRAIL OF THE ANCIENTS; STUDY OF 
FOUR NATIONAL HISTORIC TRAILS; AND WILLING SELLERS FOR THE MAJORITY OF 
                        THE TRAILS IN THE SYSTEM

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 324                                S. 635

                           S. 634                                S. 651


                                     
                               __________

                              MAY 6, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

87-752              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington
                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER. Tennessee           BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allard, Hon. Wayne, U.S. Senator from Colorado...................     6
Bereuter, Hon. Doug, U.S. Representative from Nebraska...........     2
Bower, Dru, Vice President, Petroleum Association of Wyoming, 
  Casper, WI.....................................................    30
Cioffi, Dave, Landowner, Etna, NH................................    37
Hatch, Hon. Orrin, U.S. Senator from Utah........................     8
Levin, Hon. Carl, U.S. Senator from Michigan.....................     2
Ross, D. Thomas, Assistant Director, Recreation and Conservation, 
  National Park Service, Department of the Interior, accompanied 
  by Bob Bennett, Director, State of Wyoming, Bureau of Land 
  Management.....................................................    10
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Werner, Gary, Executive Director, Partnership for the National 
  Trails System, Madison, WI.....................................    23

                                APPENDIX

Additional material submitted for the record.....................    47

 
LAND ACQUISITION FROM WILLING SELLERS; TRAIL OF THE ANCIENTS; STUDY OF 
FOUR NATIONAL HISTORIC TRAILS; AND WILLING SELLERS FOR THE MAJORITY OF 
                        THE TRAILS IN THE SYSTEM

                              ----------                              


                          TUESDAY, MAY 6, 2003

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

   OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM 
                            WYOMING

    Senator Thomas. Good morning, gentlemen. We were waiting 
for you, Senator. As soon as you came in, I tapped the gavel.
    Senator Levin. I apologize.
    Senator Thomas. Thank you for joining us for this meeting 
of the Subcommittee on National Parks. I hope we will soon be 
joined by other members.
    Our topic this morning is national trails. We have several 
bills that we want to talk about specifically, but in addition 
to that, we have been kind of looking for an opportunity to 
talk a little bit about the whole trail idea. We need sort of 
definitions that we might have, any sort of standards that we 
might have, the impact on private lands and how we work with 
that, not only in terms of access to private lands, but also 
the amount of private lands that are involved. And I think 
these are issues that arise and we need to have kind of a 
general view of where we are going from these various agencies 
and from the private groups that are here.
    So, we have four specific bills, S. 324 and S. 651, to 
amend the Trails Act to clarify the Federal authority relating 
to land acquisition from willing sellers. And S. 634 and S. 635 
direct the Interior Secretary to do some studies on specific 
trails.
    So, that is what we are here for and I appreciate all of 
you sharing with us your view. I think we all want to set aside 
those trail areas that are of historic significance. On the 
other hand, we need to come to a better idea of how we are 
going to do that and if there are any constraints that we need 
to have. So, welcome, Senators, here this morning, and why 
don't we begin.
    Senator Levin, if you would care to begin, sir.
    [A prepared statement of Mr. Bereuter follows:]

     Prepared Statement of Hon. Doug Bereuter, U.S. Representative 
                             From Nebraska

    Chairman Thomas, Senator Akaka and members of the Subcommittee: I 
would like to begin by thanking you for giving me this opportunity to 
express my strong support for S. 635, a companion bill to H.R. 1051, 
which I introduced earlier this year in the House. I also sponsored 
similar bills in the previous two congresses.
    The bill I introduced in the previous congress was approved by the 
House by voice vote on June 6. 2001. The legislation is necessary and 
should be non-controversial. It is a straightforward effort to provide 
for a one-time feasibility study update for four national historic 
trails--Oregon, California, Mormon and Pony Express.
    The measure, known as the Pioneer National Historic Trails Studies 
Act, simply recognizes the fact that there are additional routes and 
cutoffs which may deserve inclusion in the National Trails System. 
During the update period, the National Park Service will work with the 
appropriate trails groups and other interested parties to develop 
information on any new segment of trail in an effort to determine if it 
meets the criteria for addition to the system. No condemnation of 
private lands or Federal leases is to be contemplated to add any of 
these routes to the trails.
    The National Park Service is supportive of efforts to examine these 
additional routes, and it has determined that legislation is needed to 
provide the authorization. That is the purpose of S. 635 and H.R. 1051.
    All four trails covered in this legislation were instrumental in 
opening the American West, but each has its own unique story to tell. 
The California Trail enabled 70,000 people to follow their dream to the 
Golden State in 1849 and 1850. The Oregon Trail made it possible for 
fur traders, settlers and others to reach the Pacific Northwest.
    Although it lasted only about 18 months, the Pony Express achieved 
a cherished role in American lore. Its daring riders, which included 
Buffalo Bill Cody and Wild Bill Hickok, were able to deliver mail from 
St. Joseph, Missouri to Sacramento. California in ten days. The Mormon 
Pioneer Trail allowed the church members an opportunity to head west in 
search of religious freedom.
    These trails all follow at least part of the Platte River, and 
Nebraska is proud to have as one of its nicknames the ``Historic Trails 
State.'' Many used the route through Nebraska to reach their goal 
farther west. Those with more foresight decided to settle in Nebraska.
    I am pleased to note that during the 102nd Congress I introduced 
the legislation which was enacted to designate the California National 
Historic Trail and the Pony Express National Historic Trail as 
components of the National Trails System. The bill being discussed 
today will build on that effort and enable even greater recognition of 
the contributions made by these bold and courageous pioneers. Those who 
used the trails endured hardships that are difficult to imagine. They 
survived hazards such as wild animals, blizzards and floods as well as 
scarcity and disease.
    To those who bravely made it to their destination and those who 
died along the way we owe a huge debt of gratitude. I believe that S. 
635 and H.R. 1051 will help to give proper recognition to the many 
heroic individuals who played such an important role in settling the 
American West.
    I would also like to take this opportunity to express my 
appreciation to the many dedicated volunteers who have been so 
supportive of these national trails. In particular, I would like to 
thank Bill and Jeanne Watson, with the Oregon-California Trail 
Association, Pat Hearty with the Pony Express Trail Association, Ron 
Anderson with the Mormon Trail Association, and Loren Horton with the 
Iowa Mormon Trail Association. The efforts to preserve and provide 
recognition for these trails is truly a grassroots labor of love 
involving thousands of individuals.
    Again, thank you for holding this hearing and giving me the 
opportunity to submit testimony in support of S. 635 and H.R. 1051. I 
would appreciate the Subcommittee's favorable consideration of this 
legislation.

          STATEMENT OF HON. CARL LEVIN, U.S. SENATOR 
                         FROM MICHIGAN

    Senator Levin. Thank you, Mr. Chairman. Thank you first of 
all for holding this hearing. We really appreciate your doing 
that and your listening to our cause here relative to the 
trails that are involved in a number of bills.
    I have been involved with the North County Trail even 
before its inception. It is a trail which will be, when 
completed, the longest trail in the country, about 3,200 miles. 
It will be the longest continuous trail, and about half of that 
is in. That is perhaps the easiest half. It is perhaps even 
more difficult in many cases to get these miles in. 
Nonetheless, in one sense it is easier than the second half of 
the trail.
    We have many of the cuts through State parks, through 
national forests. We have a lot of private land, a lot of 
corporations have given us easements. We have had tremendous 
cooperation, of course, with the National Park Service to get 
to where we are going.
    This is a trail that is based on a vision and a dream, like 
I guess all of our trails. This trail will not be completed 
during the lives of my children and probably not even during 
the lives of my grandchildren. Like the Appalachian Trail, it 
will take a long, long time to finish, perhaps 50 years or 
more. And that means that those of us who are laboring for this 
cause now are looking a long, long way ahead, and we need the 
help of the Senate and the House if we are going to complete 
this trail and carry out that vision.
    First of all, there will be places where we will need the 
willingness of willing sellers to sell easements to the 
national Government. Just in terms of pure linkages, there are 
going to be gaps where we cannot get voluntary transfers 
without finding willing sellers.
    Now we have had a lot of donations here, we expect a lot 
more. Indeed, we expect most of this trail will be resulting 
from people who are willing to give an easement to the Park 
Service for the trail. But there will be instances and there 
already are some, where we have sellers who are willing to sell 
easements to us. There is no commitment in this bill to buy 
anything that is not in the national interest to buy, or funds 
are not available to buy, there is no commitment to do that. 
What this bill simply does is make it possible for the Park 
Service to acquire an easement from a willing seller.
    In addition to the obvious linkages that will be created, 
that are critically important to the completion of this trail, 
there are just two other factors I would mention to the 
committee.
    First is the safety issue. There are places now where this 
trail actually goes along roads, and there are connections and 
linkages which are available and will be available over time 
which will make this a safer trail, as well as a trail which is 
cohesive and connected. So there is a safety issue too which 
drives us to asking for this willing seller authority.
    Finally, this is a matter of property rights. In an ironic 
way, if a seller cannot sell to a willing buyer, which is the 
case now, we are restricting that seller in his enjoyment of 
property rights, and wherever possible in this country, it 
seems to me we should expand private property rights, not 
restrict them. If the seller cannot sell to a willing buyer, 
then he has less property rights than other sellers have.
    And if the Federal Government cannot acquire easements, if 
a willing seller cannot sell to the Federal Government, in an 
important way he has less of a right in his property than do 
other sellers.
    It is an interesting kind of an approach to the problem. I 
had not even thought that much about that aspect of it until 
recently, but it seems to me there is some significant truth to 
it. So we are asking this committee to approve S. 324. There is 
another bill which has more trails in it; our bill covers just 
three trails, the trails that are basically east of the 
Mississippi. One of our States, in fact, two of the States in 
the North Country Trail have portions west of the Mississippi, 
but this is basically a trail where the vast majority of it is 
east of the Mississippi, starting in the easterly end of New 
York and ending in the central part of North Dakota.
    It is the same bill which passed the Senate in the 107th 
Congress, and I will end with this. We passed this bill one 
once before in the Senate. When I say it passed the Congress, I 
misspoke. It passed the Senate in the 107th Congress, it did 
not pass the House. I do not know all the reasons, but perhaps 
in part because it passed the Senate so late in the 107th 
Congress.
    So again, I thank the chair and the members of this 
committee for taking the time to listen to our causes for these 
trails. They are really important to our people, there is a 
great passion and love for our trails, and passing these bills 
will make these trails more coherent, more cohesive, and make 
it possible for them to be completed.
    [The prepared statement of Senator Levin follows:]

   Prepared Statement of Hon. Carl Levin, U.S. Senator From Michigan

    Thank you for giving me the opportunity to testify before the 
committee about this important legislation.
    Legislation identical to Senate Bill 324, the National Trails 
System Willing Seller Act, was passed by the Senate in the 107th 
Congress. Unfortunately, because we passed it late in the session, the 
bill wasn't taken up in the House. The bill before you is the same 
legislation that was passed last year.
    First and foremost, this is a bill to protect property rights. 
Senate Bill 324 would amend the National Trails System Act to provide 
the federal government the authority to acquire land, including 
easements, from willing sellers to complete three national scenic 
trails authorized under the Act (North Country National Scenic Trail, 
Ice Age National Scenic Trail, and the Potomac Heritage National Scenic 
Trail). Without this bill, a landowner along those three trails who 
wants to sell to the federal government is denied the right to do so.
    I am most familiar, of course, with the situation along the North 
Country Trail, a 4,200 mile long trail across seven states, the longest 
segment being in Michigan. Willing seller authority is crucial for the 
North Country Trail. Without it, the trail cannot be completed. Like 
the other two trails in Senate Bill 324, the North Country Trail faces 
the significant challenge of crossing long stretches of private lands. 
Congress chose the route for this trail. Congress determined that this 
would be a National Scenic Trail, which by its very nature must be a 
continuous, publicly accessible path. Yet, Congress has not yet 
provided the acquisition authority needed to fully establish this 
Congressionally designated trail across its Congressionally determined 
route.
    As directed by the National Trails System Act, a strong public/
private partnership has developed to support the establishment of the 
North Country Trail. We are working with non-federal agencies to try to 
do what we can to meet the goals Congress set forth for this trail. 
Volunteers, private entities and state agencies are shouldering much of 
the responsibility of building and protecting this 4,200 mile long 
National trail. The Federal government, through the National Park 
Service, has a critical role and land and easement acquisition 
authority is part of it.
    Willing sellers, in many cases public-spirited citizens, should 
have the right to sell easements or even portions of their land to the 
Federal government should they choose to do so and if it is in the 
national interest. In addition to some needed linkages, there is a 
safety issue: willing seller authority is needed so that some sections 
of the current trail can be moved from roads where hikers and other 
trail users are unsafe.
    Under this bill, if a landowner chooses to sell a corridor or 
easement crossing his or her land and the federal government chooses to 
acquire it, we must allow reasonable access across the new federal 
corridor for that landowner. Acquisitions, of course, will be 
controlled by the federal appropriations process. In short, the willing 
seller authority restored through Senate Bill 324 for these three 
trails is sensible and reasonable and both enforces and is respectful 
of private property rights.
    Senate Bill 324 is essential to completing these legacy trails. 
This legislation would restore greater parity to the National Trails 
System for these trails. I look forward to working with the Committee 
to again pass this important legislation.

    Senator Thomas. Thank you, Senator. Just a couple quick 
questions while we are focusing on that. This North Country 
Trail is very long, I believe you said from Maine to North 
Dakota, apparently. Do you envision that all of it would be 
contiguous?
    Senator Levin. Yes.
    Senator Thomas. All 1,200 miles or whatever it is?
    Senator Levin. It is 3,200 miles, it is even longer than 
the chairman stated. It will be the longest contiguous trail. 
And again, we have about half in already, we have something 
over 1,400 miles that are in already.
    Senator Thomas. What are they in, easements you mean?
    Senator Levin. Yes, easements over private land which has 
been donated, easements over corporate land, a lot of corporate 
land where easements have been given. There is a lot of 
national forest lands in there, a lot of State parks and State 
forests are in there. It is very doable. Just like the 
Appalachian Trail was doable, it is a matter of time and with 
some segments, not a lot, but with some segments it will 
require acquiring from willing sellers. I emphasize the word 
willing. There is no condemnation authority in this request.
    Senator Thomas. Is there any limits on the size of the 
parcels that would be put into the trail in terms of width?
    Senator Levin. How wide the easement is, I do not know the 
width of the easement. It is very narrow, as far as I know, 
because I have been on portions of the trial. They are very 
narrow easements, wide enough just to have a trail and a little 
protection on the sides. It could be a matter of yards. As far 
as I know, we are not talking about significant width here. 
Perhaps I should have the answer, but perhaps the Park Service 
or the trails folks could answer that.
    Senator Thomas. And who owns these easements?
    Senator Levin. They would be transferred to the Park 
Service.
    Senator Thomas. This is a Park Service function then when 
you are through, for them to maintain it, and them to have it 
and all that?
    Senator Levin. That is the same for easements for most of 
these. Most of our trails are maintained with volunteers, put 
in by volunteers by the way. Sometimes with prisoners, when you 
are talking about State lands, but these trails are actually 
put in with volunteer help. A huge number, thousands of 
volunteers are involved in this effort. This is not some easy 
project to install and maintain a trail, this is truly a 
volunteer effort.
    Senator Thomas. Thank you, Senator.
    Senator Allard.

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Thank you, Mr. Chairman. I would like to 
also join my colleagues here in thanking you for holding this 
very timely hearing and specifically for allowing me the 
opportunity to appear before you today for your consideration 
of the National Trails Systems Willing Seller Act. I have been 
a strong--you have been a strong supporter of trails like the 
Continental Divide Trail, and I commend you for your efforts to 
find the proper balance between public and private land 
ownership.
    As a Senator from the neighboring State of Colorado, where 
only 36 percent of the land is owned by the Federal Government, 
compared to your 48.5 percent, I understand your concerns to 
protect access, private property and multiple use. I look 
forward to working with you and the other members of the 
committee on this bill as we pursue legislation that fulfills 
the intent of the National Trails System and protects the land 
use balance.
    The Willing Seller Act is not new to this committee. 
Starting in the 103rd Congress, some form of this legislation 
has been introduced by Senator Campbell, my colleague of 
Colorado, or Congressman McInnis of Colorado's 3rd 
Congressional District, and also Senator Levin. While I have 
cosponsored the legislation before, this is the first time I 
have carried the bill outright. I look forward to working with 
my colleagues and those who have put so much time into this 
effort, as we finally pass this bill into law.
    On October 2, 1968, the National Trails System Act which 
authorizes the National Trails System, became law. The intent 
of the Act was to create a national system of trails to provide 
outdoor recreational opportunities and that promotes the 
preservation of access to the outdoor and historic resources of 
the Nation.
    From our earliest years of education, we learned that 
trails served as routes for the commerce and migration that 
expanded our Nation and connected our geographically diverse 
populace. Today, these same trails serve as a proud link to our 
past heritage and scenic beauty, connecting the paths of our 
Nation with the present generation of Americans.
    By way of review, the Congress authorized nine national 
scenic and historic trails between 1978 and 1986. However, 
unlike the other trails within the system, these trails were 
stripped of the ability to purchase lands from willing sellers, 
land that would complete the trails. In other words, even if a 
landowner wants to furnish land that would fill the gaps in 
trail ownership, connecting the trail dots, he or she does not 
have the ability to do so. That is why I have introduced the 
legislation. Completion of these trails is important to me and 
my State, and I hope you will support the Willing Seller bill. 
S. 651 restores the ability of the Federal agencies to carry 
out their responsibility to protect nationally significant 
components of our Nation's cultural, natural and recreational 
heritage.
    The willing seller authorization granted in S. 651 only 
authorizes land acquisition from willing sellers. The trails 
affected by the bills cross 24 States and 81 congressional 
districts. With willing seller authority, sections of these 
trails now located on roads can be moved to overland routes 
that will provide safer and better conditions for hikers and 
other trail users. Under the willing seller bills, no contract 
is valid unless the landowner receives compensation for his 
land, reflecting basic contract law. The Federal Government 
specifically denies its power to condemn land for the trail.
    Congress enacted the National Trails System Act in 1968 to 
provide the means to provide for the ever-increasing outdoor 
recreational needs of an expanding population and in order to 
promote the preservation of public access to, travel within, 
and enjoyment and appreciation of the open-air outdoor areas 
and historic resources of the Nation by instituting a national 
system of recreation, scenic and historic trails. Congress 
provided necessary authority for appropriate Federal agencies 
to administer the trails of that system, but they later changed 
that. S. 651 restores consistency to the National Trails System 
Act by providing the means to complete the National Trails 
System on all trails. Without the ability to acquire sites and 
segments of these nine trails as they become available from 
willing sellers important resources and experiences of our 
national heritage will be lost forever. S. 651 provides the 
authority for Federal administering agencies to help protect 
the sites and segments critical to preserving the integrity and 
continuity of nearly one half of the National Trails System.
    Mr. Chairman, it is my hope that we can reach an agreement 
on this bill through legislative means or a memorandum of 
understanding that will preserve our interests while serving 
the intent of the National Trails System. Bottom line, I want 
this legislation to be a good neighbor bill that makes the 
Federal Government respect the property rights of its 
neighbors. I thank you for your time and consideration.
    Senator Thomas. Thank you, sir. Just generally, Senator, 
does this authority have any limitations, any constraints, or 
is it just clearly whatever willing sellers are willing to do?
    Senator Allard. I think it is whatever they can work out 
with a contract. Certainly we do not want a contract that is 
put in place by willing sellers that might have some 
ramifications to a neighbor, for example, of the property 
owner. And we want to make sure in this legislation that those 
kind of issues are protected and that any other landowners who 
would be along the trail do not have their property value 
somehow or the other adversely impacted. I cannot help but 
think that in most cases that this would not increase perhaps 
the value to that property, because people are frequently 
looking for ways to enjoy recreational purposes and those kinds 
of things.
    In both your State and my State, we have seen recreational 
purposes actually increase the value of the property, so I 
would think that--our intent to is to protect private property 
rights and hopefully not create a problem for any of the 
properties of any neighbors.
    Senator Thomas. Does this then affect only certain trails 
or is it sort of a general authority?
    Senator Allard. Well, we need to work that out with the 
committee and everything, but our main focus obviously is on 
the Continental Divide Trail, and that runs through Colorado, 
Wyoming and other States on the Continental Divide.
    Senator Thomas. Thank you, sir.
    Senator Hatch, thank you for joining us.

          STATEMENT OF HON. ORRIN HATCH, U.S. SENATOR 
                           FROM UTAH

    Senator Hatch. Thank you, Mr. Chairman. First of all, I 
want to thank you for holding this hearing on the National 
Historic Trails and for allowing the consideration of two bills 
which are important to my home State of Utah and the West in 
general. S. 634, regarding the Trail of the Ancients, and S. 
635, the Pioneer Trails Historic Trails Studies Act, both seek 
to highlight the human history in this region.
    I introduced the Trail of the Ancients bill in hopes of 
highlighting the unique system of ancient ruins and the travel 
system that connected them in the Four Corners region of Utah, 
Colorado, Arizona and New Mexico. Today, these sites are 
connected by a modern day system of roads and scenic byways. 
Visitors now have automobile access to the many world-renowned 
examples of ancestral Puebloan or Anasazi cultures found in the 
Four Corners region. Chairman Pete Domenici, Ranking Democratic 
member Jeff Bingaman, and Senator Ben Nighthorse Campbell of 
the Senate Energy Committee, are cosponsors of this bill, as is 
Senator Wayne Allard of Colorado.
    Mr. Chairman, I truly appreciate your willingness to give 
this legislation a hearing today. As you know, in working with 
the National Park Service and other interested parties, we have 
come up with a plan to expand and improve on our original 
concept. Rather than pursue a study regarding a national 
historic trail designation, I would like to announce our 
intention to direct a study of the Four Corners Trail of the 
Ancients area for potential designation as a national heritage 
area. All involved are very excited about the heritage area 
approach, and I am pleased to see this move in a direction that 
will lead to official acknowledgment of the incredible history 
of this area as well as the rich culture of its communities 
that survives even to this day.
    Mr. Chairman, as you know, I have provided the committee 
with legislative language for this change, and I would ask that 
at the appropriate time it be substituted for the current 
version of S. 634. I understand that sometime in the near 
future your committee may hold hearings on national heritage 
area legislation, and I ask that you consider at that time our 
proposal to study the Trail of the Ancients National Heritage 
area.
    I would now like to address S. 635, the Pioneer National 
Historic Trails Studies Act. This legislation would authorize a 
Federal study of the alternate routes for the Mormon Pioneer, 
the Pony Express, the California, and the Oregon National 
Historic Trails. These were the trails used by our early 
settlers of the West, including our own Utah pioneers.
    For various reasons, early settlers often used routes to 
arrive in the West which were variations of the main routes now 
recognized as National Historic Trails. Not every pioneer 
embarked on his journey from Omaha or Independence, and not 
every great or tragic event took place along the main routes. 
To the contrary, tens of thousands of settlers set out from 
other places, and many of the most memorable and important 
events occurred along the historical side roads and alternative 
routes.
    Because of the confining ``point to point'' wording now 
found in the Trails Act, many crucial parts of the story are 
not being adequately highlighted. Since the enactment of the 
National Trails System Act in 1968, support has been building 
to broaden the law to include alternate routes that branch off 
of the main trails. The Pioneer National Historic Trails 
Studies Act calls for the National Park Service to study these 
variant routes and to make recommendations to Congress on which 
variant routes should be included in our National Historic 
Trails system. We need to make sure that these stories do not 
slip through the cracks under a strict interpretation of the 
current law. For Utahans and other Westerners, these trails are 
the highways to our history, and this legislation will 
highlight our Nation's westward expansion.
    Mr. Chairman, as you and the members of this subcommittee 
will recall, the Senate approved legislation identical to S. 
635 in the last days of the 107th Congress. However, because 
its language differed slightly from the version passed in the 
House, it was not sent to the President. Finally, I would like 
to point out that S. 635 would not have an impact on private 
property nor create new paths across private or public lands. 
Rather, it would simply create the opportunity for the National 
Park Service to recommend new routes to Congress and to update 
existing routes.
    This bill and the study it calls for would help us to take 
an important step in preserving some of the most important 
stories of our Nation's history. I want to thank the 
subcommittee for the opportunity to address this trail proposal 
today, and I would urge my colleagues to support this 
legislation. Thank you.
    Senator Thomas. Thank you, Senator. We will certainly deal 
with the Heritage Act when we have a hearing on that.
    Just as a general concept, as you see these trails, some of 
which are very long, clear across the country pretty much, do 
you envision that an entire area of the whole trail 
consistently be listed, or would it be focused on areas where 
there were certain historic, or more historic and memorable 
things happened?
    Senator Hatch. These basically are study bills that will 
help us to make those determinations as to what exactly what we 
are about to do, but I would hope that they would come up with 
a very effective approach that would help to preserve the 
historical heritage and naturally, I think they would focus on 
those that are more relevant, more impactful at the beginning.
    Senator Thomas. Well, I must tell you that I think the idea 
of studies before we make a decision is a good idea, 
particularly something that is a little different and really 
difficult for the Congress sometimes to work on things that are 
like that.
    Gentlemen, thank you all for being here, I appreciate it 
very much and look forward to working with you.
    Let us see. Next, we have our Panel 1. Thomas Ross, 
Assistant Director for Recreation and Conservation, who will be 
accompanied by Mr. Bob Bennett, who is the Director for the 
State of Wyoming of the Bureau of Land Management. Welcome, 
gentlemen.
    Obviously we have before us several bills which we would 
appreciate your comments and your agencies' position, if they 
have one, on these bills. But further, I think we would also 
welcome your perception of how we ought to proceed with this 
idea of trails and how we might best do it, how we might best 
keep it in a manageable vein of some kind, and at the same time 
preserve those things that ought to be preserved.
    So, Mr. Ross, would you like to begin?

STATEMENT OF D. THOMAS ROSS, ASSISTANT DIRECTOR, RECREATION AND 
    CONSERVATION, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
   INTERIOR, ACCOMPANIED BY BOB BENNETT, DIRECTOR, STATE OF 
               WYOMING, BUREAU OF LAND MANAGEMENT

    Mr. Ross. Yes, thank you, Senator, and as you indicated, 
Mr. Bennett is here with me representing the Bureau of Land 
Management in the State of Wyoming, and will be able to respond 
to questions when we get into that part of the discussion.
    Mr. Chairman, members of the subcommittee, thank you for 
the opportunity to appear before you today to present the 
Department's views on S. 324, to amend the National Trails 
System Act to clarify Federal authority related to land 
acquisition from willing sellers for the North Country, the Ice 
Age, and Potomac National Heritage National Scenic Trails. S. 
324 would provide land acquisition authority from willing 
sellers for three national scenic trails established between 
1978 and 1986.
    Trails can provide an important opportunity to promote 
citizen involvement in scenic opportunities. It is this type of 
opportunity that is at the center of the Department's plan to 
implement new environmentalism and what Secretary Norton has 
termed the Four C's, communication, consultation, and 
cooperation, all in the service of conservation. Within this 
framework, the Department recognizes the positive role the 
Federal Government could play in the protection of these trails 
with the authority provided under S. 324.
    For example, landowners wishing to donate land cannot do so 
under current law because of prohibition on using funds to 
acquire land has meant that activities required for donation to 
occur, such as land protection plans or pre-acquisition 
surveys, also cannot be funded. The current prohibition also 
applies to the acquisition of interest in land. Thus, the 
Federal Government cannot purchase easements from interested 
landowners.
    It is paramount that we work closely with private 
landowners, the community, private volunteer groups, and the 
State and local governments to discover creative solutions for 
trail protection that may not result in fee simple 
acquisitions. To ensure that such alternative solutions are 
fully explored, we have provided a proposed amendment at the 
end of this testimony.
    Amendments added to the National Trails System Act in 1980 
and 1983 prohibited expenditures by Federal agencies to acquire 
lands or interest in lands for the Continental Divide National 
Scenic Trail, the North Country, Ice Age, and Potomac Heritage 
National Scenic Trails outside of existing Federal areas. This 
means that the generic land acquisition authority provided in 
section 7 of the National Trails System Act cannot be used on 
any of these scenic trails.
    Since 1983, most of the trails established under the 
National Trails System Act have had language similar to the 
following sentence. ``No lands or interests therein outside the 
exterior boundaries of any federally administered area may be 
acquired by the United States except with the consent of the 
owner thereof.'' This willing seller authority as proposed 
falls somewhere between the land acquisition authority used to 
protect the Appalachian and Pacific Crest National Scenic 
Trails and the ban on Federal funding for acquiring segments 
that fall outside of national parks and forests on the trails 
included in this bill.
    By bringing the land acquisition authority on these trails, 
these three trails in line with those in the majority of 
national scenic and national historic trails in the National 
Trails System, S. 324 will allow the Federal Government to 
assist in the protection of these trails through donation, 
easements, and as a last resort, fee simple acquisition from 
landowners actively interested in selling land for trail 
protection.
    Mr. Chairman, let me move now to the Department's view on 
S. 651, the National Trails System Willing Seller Act. S. 651 
would amend the National Trails System Act to provide land 
acquisition authority from willing sellers, but specifically 
exclude the use of condemnation, for nine national scenic and 
national historic trails established between 1978 and 1986.
    Again, within this framework, the Department recognizes the 
positive role the Federal Government could play in the 
protection of these trails with the authority provided under S. 
651. To ensure that, again, to ensure that alternative 
solutions are fully explored, we have provided a proposed 
amendment at the end of this testimony.
    By bringing the land acquisition authority on these nine 
trails in line with those in the majority of national scenic 
and national historic trails in the National Trails System, S. 
651 would allow the Federal Government to assist in the 
protection of these trails, through donation, easements, and as 
a last resort, fee simple acquisition from landowners actively 
interested in selling land for trail protection.
    Mr. Chairman, thank you for the opportunity to present the 
views of the Department of the Interior on S. 634, a bill to 
authorize the Secretary of the Interior to conduct a study on 
the Trail of the Ancients along various scenic byways in the 
Four Corners area.
    The Department does not support S. 634. The Trail of the 
Ancients appears to be a set of modern scenic byway and highway 
tour routes. S. 634 would authorize feasibility studies to 
determine if the Trail of the Ancients meets the criteria to be 
designated as a national historic trail in the National Trails 
System. One of the criteria for designation as a national 
historic trail is that, ``. . . must be a trail or route 
established by historic use and must be historically 
significant as a result of that use.'' The roads proposed for 
this trail are highways built by the States to connect the 
various sites, which would seem to preclude their designation 
as a national historic trail.
    Given that the proposed area to be studied appears to be 
unlikely to meet the criteria for designation as a national 
historic trail, we believe our limited funds are best used to 
complete pending studies and other high-priority studies.
    Finally, Mr. Chairman, thank you for the opportunity to 
present the Department of the Interior's views on S. 635, which 
would amend the National Trails System Act to update the 
feasibility and suitability studies of the Oregon, California, 
Pony Express and Mormon Pioneer National Historical Trails.
    The Department supports S. 635 with an amendment to the 
bill included at the end of this testimony. We suggest the bill 
be amended to make the deadline for completion and submission 
of the studies to Congress be 3 years after funds are made 
available for the studies.
    The feasibility study for the Oregon National Historic 
Trail was completed in 1977, the study for the Mormon Pioneer 
National Historic Trail in 1978, and the one for the California 
and Pony Express National Historic Trails in 1987. Since these 
studies have been completed, additional routes and trails and 
cutoffs were identified that may qualify as segments of these 
trails. The National Trails System Act does not provide the 
authority to evaluate and add any additional routes without 
certain legislative amendments.
    This concludes my testimony. I would be happy to respond to 
any questions that you or members of the subcommittee may have.
    [The prepared statements of Mr. Ross pertaining to S. 324, 
S. 634, S. 635, and S. 651 follow:]

 Prepared Statement of D. Thomas Ross, Assistant Director, Recreation 
and Conservation, National Park Service, Department of the Interior, on 
                                 S. 324

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on S. 324, to amend the National Trails System Act to clarify 
Federal authority relating to land acquisition from willing sellers for 
the North Country, the Ice Age, and the Potomac Heritage National 
Scenic Trails. S. 324 would provide land acquisition authority from 
willing sellers for three national scenic trails established between 
1978 and 1986.
    The Department supports the 23 long-distance trails, 15 national 
historic trails, 8 scenic trails, and 900 national recreation trails 
that make up the approximately 50,000 miles of trails in the National 
Trails System. National trails are a popular way of linking together 
thousands of significant historic sites and drawing attention to local 
cultural and natural resources. This network of trails has provided 
millions of visitors across the country with rewarding and enjoyable 
outdoor experiences. Thousands of volunteers each year work tirelessly 
to plan promote, build, maintain and otherwise care for these trails.
    Trails can provide an important opportunity to promote citizen 
involvement and bring together communities. It is this type of 
opportunity that is at the center of the Department's plan to implement 
a new environmentalism and what Secretary Norton has termed the ``Four 
C's''--Communication, Consultation, and Cooperation, all in the service 
of Conservation. The focus of the Four C's is the belief that enduring 
conservation springs from partnerships involving the people who live 
on, work on, and love the land. One example of this vision is the 
Secretary's Cooperative Conservation Initiative (CCI), which builds on 
existing conservation partnership programs and provides new and 
expanded opportunities for landowners, land managers, and others to 
participate in projects that foster innovation and create incentives 
for stewardship.
    Consistent with this vision, we have developed a set of principles 
that will serve as an important guide for all land transactions 
conducted by the Department. The principles include:

          1. Integrity: Transactions shall meet the highest ethical 
        standards and comply with all applicable laws, rules, 
        regulations and codes of professional conduct.
          2. Good Faith: Transactions shall occur in good faith and 
        only with willing parties.
          3. Transparency: Transactions shall be pursued transparently 
        with appropriate opportunities for public participation.
          4. Mission: Transactions shall promote fulfillment of 
        Departmental and Bureau missions.
          5. Citizen Stewardship: Transactions shall be consistent with 
        the promotion of private stewardship.
          6. Innovation: Transactions shall employ easements, donations 
        and other alternatives to full fee title when appropriate.
          7. Congressional Direction: The Department shall provide 
        technical assistance and policy recommendations to Congress, 
        when requested, and in a manner consistent with these 
        principles.

    Within this framework, the Department recognizes the positive role 
the Federal government could play in the protection of these trails 
with the authority provided under S. 324. For example, landowners 
wishing to donate land cannot do so under current law because the 
prohibition on using funds to acquire lands has meant that activities 
required for a donation to occur, such as land protection plans or pre-
acquisition services (surveys, tract maps, inventories, priority 
lists), also cannot be funded. The current prohibition also applies to 
the acquisition of interest in lands, and thus, the Federal government 
cannot purchase easements from interested landowners. It is paramount 
that we work closely with private landowners, the community, private 
volunteer groups, and State and local governments to discover creative 
solutions for trail protection that may not result in fee simple 
acquisition. To ensure that such alternative solutions are fully 
explored, we have provided a proposed amendment at the end of this 
testimony.
    In addition to the considerations in our proposed amendment, we 
understand that several additional steps would have to occur before 
purchase of a trail segment from a willing seller occurs including: 
developing a land protection plan; undergoing a public review process; 
and requesting, obtaining and prioritizing appropriate funding.
    The National Trails System Act was initially developed by Congress 
principally to offer Federal assistance and support for protecting the 
land base of the Appalachian National Scenic Trail. When the act was 
passed in 1968, both the previously existing Appalachian and Pacific 
Crest National Scenic Trails were established as the two initial 
components of the National Trails System and 14 more trails were 
proposed for study as potential additions to the National Trail System. 
The core authorities of the act addressed how to establish nationally 
significant trails.
    Amendments added to the National Trails System Act in 1980 and 1983 
prohibited expenditures by Federal agencies to acquire lands or 
interests in lands for the Continental Divide National Scenic Trail, 
the North Country, Ice Age, and Potomac Heritage National Scenic Trails 
outside of existing Federal areas. This means the generic land 
acquisition authorities provided in Section 7 of the National Trails 
System Act cannot be used on any of these scenic trails.
    Since 1983, most of the trails established under the National 
Trails System Act have had language similar to the following sentence: 
``No lands or interests therein outside the exterior boundaries of any 
federally administered area may be acquired by the United States for 
the Pony Express National Historic Trail except with the consent of the 
owner thereof.'' This ``willing seller authority'' falls somewhere 
between the full land acquisition authority used to protect the 
Appalachian and Pacific Crest National Scenic Trails and the ban on 
Federal funding for acquiring segments that fall outside of national 
parks and forests on the trails included in this bill.
    From its beginning, the National Trails System was premised on the 
establishment, operation, and maintenance of national trails as 
collaborative partnership efforts. For land protection, specifically, 
state governments and nonprofit partners are encouraged to protect what 
they can of the national trails, with the Federal government embarking 
on land acquisition only as a last resort. For example, in Wisconsin, 
an arrangement was set up for the Ice Age National Scenic Trail under 
which the State of Wisconsin took the lead in acquiring trail lands, 
with support from the Ice Age Park and Trail Foundation and 
coordination by the National Park Service. Further, trail nonprofit 
partners have been encouraged to develop land trusts to acquire 
critical lands. This bill is supported by a broad coalition of trail 
organizations across America.
    It would be impossible to estimate funding requirements associated 
with this bill at this time, as the number of willing sellers is 
unknown, whether donation, easements, or fee simple acquisition would 
be employed is unknown, and the cost of the land segments for each 
trail would vary due to geographic location and the long time span over 
which the acquisition work would take place. The Administration will 
identify the costs for each trail on a case-by-case basis.
    By bringing the land acquisition authority on these three trails in 
line with those in the majority of national scenic and national 
historic trails in the National Trail System, S. 324 would allow the 
Federal government to assist in the protection of these trails, through 
donation, easements, and, as a last resort, fee simple acquisition from 
landowners actively interested in selling land for trail protection.
    Mr. Chairman, this concludes my prepared testimony. I would be 
happy to answer any questions you or your committee may have.

                           PROPOSED AMENDMENT

    On p. 2, line 3, after ``interest.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
    On p. 2, line 9, after ``interest.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
    On p. 2, line 17, after ``interest'' insert ``. In acquiring lands 
or interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
                                 ______
                                 
 Prepared Statement of D. Thomas Ross, Assistant Director, Recreation 
and Conservation, National Park Service, Department of the Interior, on 
                                 S. 634

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 634, a bill to authorize the 
Secretary of the Interior to conduct a study on the Trail of the 
Ancients, along various scenic byways in the Four Corners area.
    The Department does not support S. 634. The Trail of the Ancients 
appears to be a set of modern scenic byway and highway tour routes. The 
scenic byway is approximately 710 miles long and extends through the 
states of Utah, Colorado, Arizona, and New Mexico, known as the Four 
Corners Area. S. 634 would authorize a feasibility study to determine 
if the Trails of the Ancients meets the criteria to be designated as a 
national historic trail in the National Trail System. One of the 
criteria for designation as a national historic trail is that a trail 
``. . . must be a trail or route established by historic use and must 
be historically significant as a result of that use.'' The roads 
proposed for this trail are highways built by the States to connect the 
various sites, which would seem to preclude their designation as a 
national historic trail.
    Additionally, The National Park Service is in various stages of 
progress with 37 studies previously authorized by Congress. Eight of 
those studies involve potential additions to the National Trails 
System. Our highest priority is to complete the studies previously 
authorized by Congress, and to only begin work on newly authorized 
studies when funds are available. If authorized, the study is estimated 
to cost approximately $250,000. Given that the proposed area to be 
studied appears to be unlikely to meet the criteria for designation as 
a national historic trail, we believe our limited funds are best used 
to complete pending studies and other high-priority studies.
    Mr. Chairman, this concludes my prepared testimony. I would be 
happy to answer any questions you or your committee may have.
                                 ______
                                 
 Prepared Statement of D. Thomas Ross, Assistant Director, Recreation 
and Conservation, National Park Service, Department of the Interior, on 
                                 S. 635

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 635, which would amend the 
National Trails System Act to update the feasibility and suitability 
studies of the Oregon, California, Pony Express and Mormon Pioneer 
National Historic Trails (NHT).
    S. 635 would update the feasibility and suitability studies and 
make recommendations through the examination of additional routes and 
cutoffs not included in the initial studies of all four trails. The 
Secretary of the Interior would determine if any of these routes and 
cutoffs are eligible as additions to the four NHTs at the completion of 
these studies and report back to the Congress.
    The Department supports S. 635 with an amendment to the bill 
included at the end of this testimony. We suggest the bill be amended 
to make the deadline for completion and submission of the studies to 
Congress be three years after funds are made available for the studies.
    The National Park Service is in various stages of progress on 37 
studies previously authorized by Congress. Eight of those studies are 
being funded from the same appropriation that would be used for these 
updated trail studies. The Department's priority has been to complete 
the studies previously authorized by Congress, and to begin work on 
newly authorized studies as funding becomes available. We therefore 
suggest that the bill be amended to make the deadline for completion 
and submission of the studies to Congress be three years after funds 
are made available.
    The feasibility study for the Oregon NHT was completed in 1977, the 
study for the Mormon Pioneer NHT in 1978, and the one for the 
California and Pony Express NHTs in 1987. Since those studies have been 
completed, additional routes and cutoffs were identified that may 
qualify as segments of these trails. The National Trails System Act 
does not provide the authority to evaluate and add any additional 
routes and cutoffs without certain legislative amendments.
    The Oregon NHT, authorized in 1978, commemorates the ``primary 
route'' used by emigrants beginning in 1841 between Independence, 
Missouri and Oregon City, Oregon. Traveled by thousands, the trail 
contained routes and cutoffs used through the years. These secondary 
routes had substantial emigrant traffic over several decades that 
demonstrate historical significance and may be worthy of examination in 
an updated study.
    The authorization of the Mormon NHT in 1978 commemorates the 
journey of the pioneer party in 1846-1847 from Nauvoo, Illinois, to 
Salt Lake City, Utah. As with the Oregon NHT, emigrant traffic occurred 
on many additional routes during the Mormon migration westward. As with 
the other trails, these routes frequently coincide with one another. 
Preliminary data indicate historic traffic along these routes.
    Authorized in 1992, the California NHT commemorates the gold rush 
to the Sierra Nevada. Dozens of routes and cutoffs were traveled by 
thousands of pioneers, but no single route dominated.
    The Pony Express NHT was included in the same authorizing 
legislation as the California NHT. It commemorates the efforts of this 
nation struggling to establish a system of communication across the 
Trans-Missouri west. The trail primarily follows routes beginning at 
St. Joseph, Missouri and ending in San Francisco, California. The firm 
of Russell, Majors, and Waddell, a western Missouri freighting company, 
established and operated the Pony Express for one and a half years 
before it fell on hard times and ceased to exist. A short section of 
the trail, from the Missouri River into Kansas, may be worthy of study 
and is included in S. 635.
    All four trails overlap one another in many locations and several 
of the routes and cutoffs proposed for study in S. 635 are already part 
of designated trails. These shared routes are prominent where the 
trails depart from various points along the Missouri and Mississippi 
Rivers, particularly in the Kansas City, St. Joseph, Nebraska City, 
Council Bluffs and Omaha areas. Several other shared locations include 
routes in western Nebraska, Kansas, Colorado, Wyoming, Idaho, Nevada 
and California.
    The National Trail System Act requires that studies of lands 
proposed for trails be made in consultation with federal, state, and 
local agencies, as well as nonprofit trail organizations. Between 1994 
and 1999, the National Park Service in collaboration with the Bureau of 
Land Management, USDA Forest Service, trail advocacy groups and others 
completed the Comprehensive Management and Use Plan and Environmental 
Impact Statement (1999) for the four trails. This was the initial plan 
for the recently established California and Pony Express NHTs as well 
as revised plans for the earlier established Oregon and Mormon Pioneer 
NHTs. S. 635 would allow for the consideration of these additional 
alternates and cutoffs by authorizing an update of the original studies 
done for these four trails to evaluate which are eligible for 
designation as NHT segments. S. 635 maintains the requirements of the 
National Trail System Act to work closely with federal agencies, state, 
local and tribal governments, local landowners and other interested 
parties. We anticipate the cost of doing these studies to be 
approximately $175,000.
    The intent of the National Trails System Act is one of respecting 
private property rights. Given that historic trails cross public and 
private lands, the development of strong partnerships is critical to 
administering and managing the historic trails and achieving 
preservation of trail resources and interpretation of the trail to the 
public. The four national trails in this legislation demonstrate 
existing public and private partnerships.
    This concludes my testimony. I would be happy to respond to any 
questions that you or members of the subcommittee may have.
                          amendment to s. 635:

    S. 635 is amended on page 2, line 24 by striking ``the date of 
enactment of this section'' and inserting ``funds are made available''.
                                 ______
                                 
 Prepared Statement of D. Thomas Ross, Assistant Director, Recreation 
and Conservation, National Park Service, Department of the Interior, on 
                                 S. 651

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on S. 651, the National Trails System Willing Seller Act. S. 651 
would amend the National Trails System Act to provide land acquisition 
authority from willing sellers, but specifically exclude the use of 
condemnation, for nine national scenic and national historic trails 
established between 1978 and 1986.
    The Department supports the 23 long-distance trails, 15 national 
historic trails, 8 scenic trails, and 900 national recreation trails 
that make up the approximately 50,000 miles of trails in the National 
Trails System. National trails are a popular way of linking together 
thousands of significant historic sites and drawing attention to local 
cultural and natural resources. This network of trails has provided 
millions of visitors across the country with rewarding and enjoyable 
outdoor experiences. Thousands of volunteers each year work tirelessly 
to plan promote, build, maintain and otherwise care for these trails.
    Trails can provide an important opportunity to promote citizen 
involvement and bring together communities. It is this type of 
opportunity that is at the center of the Department's plan to implement 
a new environmentalism and what Secretary Norton has termed the ``Four 
C's''--Communication, Consultation, and Cooperation, all in the service 
of Conservation. The focus of the Four C's is the belief that enduring 
conservation springs from partnerships involving the people who live 
on, work on, and love the land. One example of this vision is the 
Secretary's Cooperative Conservation Initiative (CCI), which builds on 
existing conservation partnership programs and provides new and 
expanded opportunities for landowners, land managers, and others to 
participate in projects that foster innovation and create incentives 
for stewardship.
    Consistent with this vision, we have developed a set of principles 
that will serve as an important guide for all land transactions 
conducted by the Department. The principles include:

          1. Integrity: Transactions shall meet the highest ethical 
        standards and comply with all applicable laws, rules, 
        regulations and codes of professional conduct.
          2. Good Faith: Transactions shall occur in good faith and 
        only with willing parties.
          3. Transparency: Transactions shall be pursued transparently 
        with appropriate opportunities for public participation.
          4. Mission: Transactions shall promote fulfillment of 
        Departmental and Bureau missions.
          5. Citizen Stewardship: Transactions shall be consistent with 
        the promotion of private stewardship.
          6. Innovation: Transactions shall employ easements, donations 
        and other alternatives to fee title when appropriate.
          7. Congressional Direction: The Department shall provide 
        technical assistance and policy recommendations to Congress, 
        when requested, and in a manner consistent with these 
        principles.

    Within this framework, the Department recognizes the positive role 
the Federal government could play in the protection of these trails 
with the authority provided under S. 651. For example, landowners 
wishing to donate land cannot do so under current law because the 
prohibition on using funds to acquire lands has meant that activities 
required for a donation to occur, such as land protection plans or pre-
acquisition services (surveys, tract maps, inventories, priority 
lists), also cannot be funded. The current prohibition also applies to 
the acquisition of interest in lands, and thus, the Federal government 
cannot purchase easements from interested landowners. It is paramount 
that we work closely with private landowners, the community, private 
volunteer groups, and State and local governments to discover creative 
solutions for trail protection that may not result in fee simple 
acquisition. To ensure that such alternative solutions are fully 
explored, we have provided a proposed amendment at the end of this 
testimony.
    In addition to the considerations in our proposed amendment, we 
understand that several additional steps would have to occur before 
purchase of a trail segment from a willing seller occurs including: 
developing a land protection plan; undergoing a public review process; 
and requesting, obtaining and prioritizing appropriate funding.
    The National Trails System Act was initially developed by Congress 
principally to offer Federal assistance and support for protecting the 
land base of the Appalachian National Scenic Trail. When the act was 
passed in 1968, both the previously existing Appalachian and Pacific 
Crest National Scenic Trails were established as the two initial 
components of the National Trails System and 14 more trails were 
proposed for study as potential additions to the National Trail System. 
The core authorities of the act addressed how to establish nationally 
significant trails.
    In 1978, the national historic trails category was added to the 
National Trails System accompanied by authorization of four historic 
trails (Oregon, Mormon Pioneer, Lewis and Clark, and Iditarod). 
National historic trails were seen as primarily commemorative with only 
limited need for acquisition authority. Amendments added to the 
National Trails System Act prohibited expenditures by Federal agencies 
to acquire lands or interests in lands for these trails outside of 
existing Federal areas. Amendments added in 1980 and 1983 made this 
prohibition applicable to the Continental Divide National Scenic Trail, 
as well as to the North Country, Ice Age, and Potomac Heritage National 
Scenic Trails. This means the generic land acquisition authorities 
provided in Section 7 of the National Trails System Act cannot be used 
on any of these scenic and historic trails.
    Since 1983, most of the trails established under the National 
Trails System Act have had language similar to the following sentence: 
``No lands or interests therein outside the exterior boundaries of any 
federally administered area may be acquired by the United States for 
the Pony Express National Historic Trail except with the consent of the 
owner thereof.'' This ``willing seller authority'' falls somewhere 
between the full land acquisition authority used to protect the 
Appalachian and Pacific Crest National Scenic Trails and the ban on 
Federal funding for acquiring segments that fall outside of national 
parks and forests on the nine trails included in this bill.
    From its beginning, the National Trails System was premised on the 
establishment, operation, and maintenance of national trails as 
collaborative partnership efforts. For land protection, specifically, 
state governments and nonprofit partners are encouraged to protect what 
they can of the national trails, with the Federal government embarking 
on land acquisition only as a last resort. For example, in Wisconsin, 
an arrangement was set up for the Ice Age National Scenic Trail under 
which the State of Wisconsin took the lead in acquiring trail lands, 
with support from the Ice Age Park and Trail Foundation and 
coordination by the National Park Service. Further, trail nonprofit 
partners have been encouraged to develop land trusts to acquire 
critical lands. This bill is supported by a broad coalition of trail 
organizations across America.
    Along historic trails, the major means of protecting the trail 
corridor has been through a voluntary certification process. These 
five-year renewable agreements between the Federal trail agency and the 
landowner have enabled trail sites and segments to remain in private 
ownership and still receive Federal government recognition as part of a 
national trail. The advantages to certification are that it is less 
costly for the government and the land remains in private (or State) 
ownership, continuing to generate taxes.
    It would be impossible to estimate funding requirements associated 
with this bill at this time, as the number of willing sellers is 
unknown, whether donation, easements, or fee simple acquisition would 
be employed is unknown, and the cost of the land segments for each 
trail would vary due to geographic location and the long time span over 
which the acquisition work would take place. The Administration will 
identify the costs for each trail on a case-by-case basis.
    By bringing the land acquisition authority on these nine trails in 
line with those in the majority of national scenic and national 
historic trails in the National Trail System, S. 651 would allow the 
Federal government to assist in the protection of these trails, through 
donation, easements, and, as a last resort, fee simple acquisition from 
landowners actively interested in selling land for trail protection.
    Mr. Chairman, this concludes my prepared testimony. I would be 
happy to answer any questions you or your committee may have.

                           PROPOSED AMENDMENT

    On p. 4, line 3, after ``thereof.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
    On p. 4, line 10, after ``thereof.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
    On p. 4, line 17, after ``thereof.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
    On p. 4, line 24, after ``thereof.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
    On p. 5, line 7, after ``thereof.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
    On p. 5, line 14, after ``thereof.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
    On p. 5, line 21, after ``thereof.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
    On p. 6, line 2, after ``thereof.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''
    On p. 6, line 7, after ``thereof.'' insert ``In acquiring lands or 
interests therein, the Federal Government shall employ easements, 
donations, and other alternatives to fee title when appropriate.''

    Senator Thomas. All right, sir, thank you. Mr. Bennett, do 
you have a statement you care to make?
    Mr. Bennett. I do not. I defer to Mr. Ross.
    Senator Thomas. Okay. Let me ask of this of both of you, I 
guess. How do you go about, what are your standards, what are 
your bases for identifying potential land for the National 
Trails System?
    Mr. Ross.
    Mr. Ross. Thank you, Mr. Chairman. We have at this point 
only developed standards for identifying segments of land for 
the Appalachian National Scenic Trail. That is the only trail 
currently that has a land protection plan. The other trails 
have identified in their comprehensive plans areas where the 
corridor would generally go through, but it has not identified 
particular parcels of land at this point because there have not 
been land protection plans developed for those trails.
    Senator Thomas. I guess my question was more, before it 
receives a designation as a national trail, part of the 
National Trails System, is there any sort of condition or 
criteria?
    Mr. Ross. Yes, sir. The National Trails System Act does 
have specific criteria for creating a national scenic or 
national historic trail. Those can only be designated by an act 
of Congress. We have at this point 23 national scenic and 
historic trails that have done so by Congress, but we do not, 
only through a planning study to be authorized by Congress or 
by an actual designation, do we then begin to identify where 
the corridor might be.
    Senator Thomas. Mr. Bennett, how is this handled in the 
Bureau of Land Management?
    Mr. Bennett. It is virtually the same system. In fact, the 
process is the same. The authorization would occur, the plan 
would be developed, and in essence following that plan, 
attempts would be made to locate the trails specifically and 
then to plan for the management of the trail. It is virtually 
the same with the Bureau and, in fact, the Park Service is 
normally the lead in this initiative.
    Senator Thomas. Has every trail that the Congress has 
approved to be a part of this had a study?
    Mr. Ross. I believe there have been only several trails 
that have not actually been preceded by a study. I believe that 
is the case in the Ice Age National Scenic Trail, I believe, if 
I may check with our staff here to identify whether they have.
    Appalachian and Pacific Crest trails were done without a 
study when the National Trails System Act was authorized. So 
the three trails that have not been preceded by a study would 
be the Appalachian Trail, Pacific Crest, and the Ice Age 
National Scenic Trail.
    Senator Thomas. It seems like, and maybe I am mistaken, but 
it seems like Congress has authorized some trails here without 
study being required. In fact, just recently in our bill not 
too long ago, we required studies before park designations 
could be made, and I am not sure that has been the case in the 
trails. Do you think it has?
    Mr. Ross. All the remaining trails have been preceded by a 
study to determine whether or not the trail meets the criteria 
for the significance of a national trail. So I believe it is 
only those three, and again, I believe, Senator, that the 
reason was when the National Trails System was authorized in 
1968, it was seen as a mechanism to protect the Appalachian 
Trail, which was sort of the guiding force behind that act.
    Certainly our position is that we would recommend that a 
study precede any sort of actual designation by Congress.
    Senator Thomas. I would agree with that, but I am not sure 
that is necessarily the case now. I guess I am asking if that 
needs to be strengthened so that we ensure that that does, in 
fact, happen.
    Mr. Ross. Well again, with the exception of the Ice Age 
Trail, all these remaining trails, and the Appalachian and 
Pacific Crest, all the remaining trails have been preceded by a 
study prior to being designated.
    Senator Thomas. The Oregon Trail, all those trails, all 200 
of them that go across Wyoming?
    [Laughter.]
    Mr. Ross. Yes, sir. There have been numerous trails that 
have been studied.
    Senator Thomas. Mr. Bennett, is this the way you function 
in BLM as well?
    Mr. Bennett. In fact, for the most part, the trails are, in 
fact, identified by Congress, and we do precisely the same 
thing. We do not actually, or we have not to my knowledge done 
a lot of acquiring additional lands for trails. In fact, what 
we have done is basically managed those trails that are on 
public lands specifically.
    But I would like to point out, I think the intent here is 
not to acquire lengths of trail but actually those things that 
are historically significant along the trail, rather than--what 
we really want to do is, I think, identify those things that 
have value, significant value to the trail, and I think 
priority-wise, those kinds of things would be targeted. That is 
from my perspective.
    Senator Thomas. I guess I am not sure how this works. Have 
you ever had a study and said no, that does not qualify?
    Mr. Ross. Yes, sir. There have been a number of studies 
that have been authorized, we have gone through the process, we 
have looked at the suitability and feasibility in accordance 
with the National Trails System guidelines, and we have 
recommended that they not be designated as a national 
historical or national scenic trail. I would be pleased to 
provide those for the record.
    Senator Thomas. I wish you would, please.
    Who then, what agency then has the responsibility for 
continuing to maintain and work with this trail that has been 
designated as a national trail, part of the National Trails 
System?
    Mr. Ross. The trails are assigned to an agency for 
administration. However, because of the interagency 
relationships that occur, there is a great deal of cooperation 
and collaboration between the agencies. For example, the Lewis 
and Clark National Historic Trail is assigned to the National 
Park Service for management. However, it is an interagency 
endeavor which involves the Bureau of Land Management, since 
much of the trail crosses BLM lands. There are Forest Service 
lands, there are local lands. So what we envision in our 
management of these resources from a National Park Service 
perspective is a very cooperative relationship, a very limited 
Federal role that works cooperatively with Federal, other 
Federal agencies, other State agencies, local agencies in 
protecting the tail and its resources.
    Senator Thomas. I asked one of the Senators about the 
continuity of the trails, Mr. Bennett. When a trail is 
designated and lands are maybe, some effort to acquire lands 
and so on, do they go from the beginning in history to 
California without--is the whole thing designated?
    Mr. Bennett. I am not sure of the specifics of that. 
However, you know, what we try to focus on as I said earlier, 
is those things that are historically significant. Clearly in 
some areas the trail has been obviated or it has been removed, 
and we attempt to focus and try to protect those portions of 
the trails, of the trails that we manage in Wyoming at least, 
we try to focus on those things that are there and still for 
the enjoyment of the people.
    In some cases because of the mixture of ownership as well 
as activities that have occurred along the trail, the level of 
protection clearly has declined, and there are some areas that 
are pristine. Again, what we are trying to do is focus on those 
portions of the trail that are on public lands, and those 
portions of the trail that might be on private land, those 
activities are at the discretion of a private individual. I do 
not know if that answers your question or not.
    Senator Thomas. Well, I think so. I mean, you go across 500 
miles of trails and there are segments that are particularly 
notable and there are segments that either have now been 
developed or are quite different, and so I just wondered how 
you deal with that change. Yes, sir?
    Mr. Ross. Senator, if I may respond to that question as 
well, I think that the continuous route or continuous linkage 
comes directly from the National Trails System Act related to 
the national scenic trails. The intent was, we believe that the 
scenic trails would be a continuous route so that participants 
could, or users could use that from one end to the other.
    National historic trails, which were added later to the 
National Trails System Act are different in that they may be a 
series of interrelated kinds of resources that may not be a 
physical connection. It is much more in the way of linking 
important areas or sites and helping to protect those sites 
rather than a continuous route, as national scenic trails. I 
hope that clarifies that.
    Senator Thomas. What would be the status for example of the 
North Country Trail, the 3,200 miles of it?
    Mr. Ross. The intent, again, is for that to be a continuous 
route. The early efforts have been, because the efforts have 
been focused on acquiring segments or certifying segments that 
are already in public ownership, Forest Service areas, Park 
Service areas, other State or local lands that are already in 
public ownership that can be identified for the trail. The 
large unprotected areas are primarily in private ownership at 
this point.
    Senator Thomas. Well, is it contiguous?
    Mr. Ross. No, sir, it is not at this point.
    Senator Thomas. But is that----
    Mr. Ross. The intent is to have a continuous route, yes, 
sir.
    Senator Thomas. And your view of that, does it make sense?
    Mr. Ross. Yes, it does. Again, with the National Trails 
System Act, the planning process is in place, and the objective 
is to complete that at some point so there can be a continuous 
route.
    Senator Thomas. Has the Park Service condemned lands for 
additional trails systems?
    Mr. Ross. The only authority that exists for the National 
Trails System is for the Appalachian Trail, and condemnation 
authority has been used in limited cases on the Appalachian 
Trail, either friendly condemnation to quiet a title or in 
those areas where an agreement could not be reached.
    Senator Thomas. What do both of you, in fairly brief 
comment if you would, what do you think needs to be done to 
strengthen our efforts in the trail program for the future? And 
again, the Park Service is always concerned that they have more 
to do than they can handle, and then at the same time you have 
heritage areas and trail areas that seem to be just going and 
going and going. What would you do about the program, anything 
different?
    Mr. Ross. That is a hard question for me to answer, 
Senator. I think that the legislation that we have testified on 
today would go a long way toward helping provide authorities to 
those trails to acquire land through willing seller and other 
kinds of authorities. Beyond that, I am not in a position to 
offer any suggestions at this point.
    Senator Thomas. So you do not have any concern about how 
many trails we will have, what kinds of trails, what is the 
requirement for trails and all that sort of thing? You have not 
turned down many trials. I know you are going to give us some 
information on that, but I think that is a fact.
    Mr. Ross. Well, we have not turned down any trails that 
have been authorized by Congress, I believe.
    Senator Thomas. Why do you have a study then? Why do we not 
just authorize it by the Congress. If your study does not show 
anything different than authorization, why do you bother?
    Mr. Ross. Our studies have clearly shown a number of trails 
that we do not feel meet the criteria for either national 
scenic or national historic trails.
    Senator Thomas. I would like to see a list of those that 
you have you have studied and have not gone forward with.
    Mr. Ross. I would be glad to provide that for the record, 
Senator.
    Senator Thomas. Mr. Bennett.
    Mr. Bennett. I think from our perspective, and again, my 
emphasis is really on the operations or management of trails, 
but my sense is that at least the Bureau needs to look at the 
trails that have been established and look at the consistency 
and uniformity of management across the public lands, so that 
both the citizens as well as industry and those folks that use 
the public lands understand that you know, the rules that we 
have with regard to the trail and the kinds of things we need 
to do to protect the trails, that those are commonly 
understood. I think that will be very beneficial.
    I think the bill for the most part, we feel that under 
FLPMA, that we have the authority to acquire land for the 
trail. However, I think proposed legislation would clearly 
validate that, you know, if there was any question about it. So 
to that extent, I believe we would support that as well.
    I think our real issue, though, is the actual management of 
the trail and making sure that both those people that enjoy the 
trail, that use the trail, understand it. And quite frankly, 
the trails get a tremendous amount of use in Wyoming from 
visitors, and we do need to identify those portions of the 
trail that need to be protected. In some cases they are being 
used to the extent that some damage is occurring, and we need 
to identify those areas and plot more intensive management.
    Senator Thomas. One final question. As you lay these out 
and particularly in the acquisition of other lands, how do you 
see the corridor? We have had propositions in Wyoming up to 15 
miles on each side for the visual aspects of it. We have had 
some that are much more narrow. Do you have a view about the 
width of the corridor that would be dedicated to the trail?
    Mr. Ross. Senator, that is going to vary from trail to 
trail, depending upon the needs of that trail and the trail 
use. I think the Appalachian Trail is the only one with an 
established corridor at this point, and that is 1,000 feet in 
width. But essentially, the need exists for a sufficient 
corridor to allow for the kind of use that would occur on that 
trail consistent with the management plan that established 
that.
    Senator Thomas. The visual is usually the controversial 
part.
    Mr. Ross. Yes, it is.
    Senator Thomas. What do you do with that?
    Mr. Ross. Well, we will be seeking to deal with the visual 
impact of what kind of environment the trail user is associated 
with. We believe that as in the case of many of the trails, 
there are local groups, local agencies, local land trusts, the 
trail organizations that work very hard and cooperatively with 
adjacent landowners and others in the area to work toward 
assuring that the visual sense of that trail is maintained as 
much as possible.
    Senator Thomas. Really? Okay.
    Mr. Bennett.
    Mr. Bennett. As a corridor, our current policy is trying to 
restrict the disturbance along the trail within a quarter mile. 
However, personally, I am not sure that that is not somewhat 
arbitrary because again, there are portions of the trail that 
because of the ownership pattern and because of development, 
you know, that management is somewhat arbitrary and I think 
that activities can occur even within that. However, we are 
charged with protecting the context of the trail.
    I would hate to see a corridor established and set in 
stone. I think what we need to be able to do is to look at the 
impacts of what occur along the trail and then work with the 
applicant or the industry or whoever, to try to either mask 
those or to camouflage, to use the term, or to reduce those 
impacts. In other words, I would hate to have something 
arbitrary. I think the best thing for us would be able to work 
with the applicant. We have always had a great deal of good 
luck with industry in Wyoming, they are very cooperative in 
terms of what it takes to try and reduce the impact.
    So I guess, you know, if we can locate the route, 
personally I think the best thing is to be able to recognize 
that we have to protect those trails and then work, try to find 
the yes answer rather than a no answer. And again, I would hate 
to see an arbitrary corridor established.
    Senator Thomas. Gentlemen, thank you. I just would urge 
that in your agencies that you give a little thought, perhaps a 
little more thought to where you see us in 10 years or 20 years 
down the road, and pursue what we are doing now, what would be 
the impact 20 years now, or better yet, have a vision of where 
we want to be 20 years from now so that the decisions that we 
make in the interim will lead us to that point. I just have a 
sense that we are properly wanting to protect historic places 
and historic things, but I do not think you have any vision 
particularly of how that is going to look when we get down the 
road. And I would hope that we could do that, and we would like 
very much to share with you any thoughts that you have in that 
regard. Thank you very much, I appreciate it.
    Let us do our second panel now. Mr. Gary Werner, executive 
director of Partnership for the National Trails System, 
Madison, Wisconsin; Mr. Dave Cioffi, landowner from Etna, New 
Hampshire; and Ms. Dru Bower, vice president, Petroleum 
Association of Wyoming.
    Unless there is any objection, why do we not just go as we 
are listed here. Mr. Werner, if you would go first.

 STATEMENT OF GARY WERNER, EXECUTIVE DIRECTOR, PARTNERSHIP FOR 
            THE NATIONAL TRAILS SYSTEM, MADISON, WI

    Mr. Werner. Good morning, Senator. Thank you for the 
opportunity to testify this morning. I am the executive 
director of the Partnership for the National Trails System, 
which is a federation of 24 nonprofit organizations that work 
in partnership with the Federal agencies to sustain the three 
national scenic and historic trails.
    I want to note in the context of many of your questions and 
concerns, that the National Trails System is, I will not say it 
is unique, but it is certainly very unusual as a Federal 
program, because it is conceived as a public-private 
partnership and we take great pride as private citizens in the 
role that we play to help support these public resources. For 
instance, in 2002, the more than 70,000 members of our 
organizations contributed other 660,000 hours of labor to 
support the trails that was valued at about $10.5 million, and 
we made about $7 million of financial contributions beyond 
that.
    So that each of these trails is made on a whole series of 
partnerships like this, with various levels of government and 
private entities, and that comes into play in the land 
acquisition as well as the day-to-day management of the trails. 
The Partnership supports very strongly the two willing seller 
bills and S. 624, the Historic Trails Feasibility Studies Bill.
    While we support both of the willing seller bills, we 
definitely prefer S. 651, which includes all of the nine trails 
for which that authority is currently lacking. We think it is 
fitting, we think it is only right that those nine trails be 
given the same authority that the other trails in the National 
Trails System have been given, particularly the trails, the 
nine trails that have been authorized since then, including the 
Old Spanish Trail last November, with exactly the authority 
that is included in S. 651, the authority to purchase land by 
Federal agencies only from willing sellers.
    It is important for these trails. It is ironic that two of 
the trails that cross your State, the Oregon and Mormon Pioneer 
Trails follow the same route as the California and Pony Express 
trails, and those two other trails, California and Pony 
Express, the Federal agencies can buy land from willing 
sellers, but they cannot buy land for the Oregon or the Mormon 
Pioneer Trails. This is an inconsistency on the Trails Act, as 
I think both Senator Allard and Senator Levin mentioned, that 
we think is important to redress.
    We also believe, as Senator Levin mentioned, that this is, 
in fact, a restoration of private property rights and I think 
that is important. Willing sellers do abound out there on these 
trails. The State of Wisconsin, where I am from, the State of 
Wisconsin Department of Natural Resources and some of the local 
county parks departments have been buying land for the Ice Age 
Trail from willing sellers for a number of years, and, in fact, 
closed on another parcel just last week. And so I know that the 
sellers are there, I know the need is there, particularly for 
the trails that are meant to be continuous foot paths, the 
scenic trails. There are critical sites to the historic trails 
that need protection as well.
    In terms of the questions you mentioned about the planning 
for the trails, in terms of the historic trails, section 7.A of 
the National Trails System Act specifically restricts any land 
acquisition to what are called high potential sites and 
segments. Those are those places you were asking about where 
the significance of the historical features are the greatest. 
These are the maps from the comprehensive management plan for 
the Oregon National Historic Trail through Wyoming, and it is 
showing the places in Wyoming that are those sites. I think 
there are about 12 on private land in Wyoming that would be 
affected by S. 651.
    In terms of corridor for, again, the Ice Age Trail, we do 
have plans that have been done on a county-by-county basis that 
identify specific, what they call a corridor of opportunity to 
buy potential land from landowners. That corridor is usually a 
mile to two miles wide, several ownerships in width, so there 
is an opportunity to work with whatever landowner may want to 
sell land for the trail. The actual land that has been acquired 
for the trail is much less than what is in the corridor.
    And I have a map here that shows a section of the Ice Age 
Trail near Madison where I live, and you see in green what has 
actually been acquired within a broader band of white corridor.
    As I mentioned also in Wyoming, I think with the 
Continental Divide Trail, 95 percent of the trail is on public 
land already. There is one stretch through the Checkerboard 
area that is on private land. The landowner is I believe 
willing to sell an easement, a narrow easement about 100 feet 
wide, to the Bureau of Land Management, and that would complete 
the Continental Divide Trail in Wyoming.
    We support also very strongly Senator Hatch's bill, the 
Historic Trails Feasibility Study Bill, and that is the kind of 
study we understand that you were asking about and is required 
under the National Trails System Act, and has actually very 
stringent requirements in the act for those bills, or trails to 
come forward.
    The important thing about that, as he mentioned, is that 
research has indicated more routes and cutoffs, has indicated 
that some of the routes were used by multiple people on 
different trails for different purposes, and they are not 
recognized in the initial legislation. So we feel it is very 
important that you provide the authority to the Park Service to 
restudy these trails, and then you have the opportunity to 
either accept whatever recommendations they may make or reject 
those, as designating them as parts of the trail.
    I would like to briefly close by mentioning--you have asked 
a couple times about sort of the impact of the trails on 
adjacent lands and things like that. There are authorities in 
the act that require the managing agencies to provide right-of-
way and access across the trail for adjacent landowners. And I 
know of several cases in Wyoming where natural gas pipelines, 
where stock fences, where roads, things like that, and they cut 
across the Continental Divide Trail, and those have been worked 
out amicably.
    I also note in terms of the effect on adjacent lands, in 
Wisconsin we found that the parcels that had been purchased for 
the Ice Age Trail, that typically land adjoining those 
purchased for that amenity go up in value by anywhere from 10 
to 20 percent because of the public amenity that is created by 
protecting that piece of the trail.
    Tourism has become important in all these States. I know 
your State is a major tourism State, Wisconsin is also, and 
people are more and more flocking to the historic and cultural 
and recreational values of the trails.
    So, we urge you to go ahead with these bills. We would 
prefer S. 651, as I said, to S. 324, and hope that you will 
expedite the process. We thank you very much for your interest, 
and of course I would be happy to answer questions.
    [The prepared statement of Mr. Werner follows:]

  Prepared Statement of Gary Werner, Executive Director, Partnership 
              for the National Trails System, Madison, WI

    The Partnership for the National Trails System strongly supports 
both Senate Bill 324 introduced by Senator Levin and Senate Bill 651, 
the ``National Trails System Willing Seller Act,'' introduced by 
Senator Allard. Senate Bill 324 is identical to legislation passed by 
the Senate by unanimous consent near the end of the 107th Congress. 
Senate Bill 324 provides authority to Federal agencies to purchase land 
and interests in land from willing sellers to help preserve permanent, 
continuous rights-of-way for the Ice Age, North Country, and Potomac 
Heritage National Scenic Trails, components of the National Trails 
System authorized by Congress 20 or more years ago.
    Senate Bill 651 provides authority to Federal agencies to purchase 
land and interests in land from willing sellers for all nine trails for 
which Federal agencies currently are prohibited from buying land: the 
Oregon, Mormon Pioneer, Lewis and Clark, Iditarod and Nez Perce 
National Historic Trails and the Continental Divide, Ice Age, North 
Country and Potomac Heritage National Scenic Trails. Although the 
Partnership supports both bills, we prefer S. 651 because it provides 
necessary land acquisition authority for all nine trails and restores 
consistency of authority to the National Trails System Act. The 
Partnership urges you to promptly recommend S. 651 for passage by the 
Senate.
    The Partnership for the National Trails System is a federation of 
24 citizen organizations with 70,000 members that directly support and 
help manage national scenic and historic trails in partnership with the 
National Park Service, USDA Forest Service, and the Bureau of Land 
Management.
    S. 651 and S. 324 are important remedial bills that correct a gross 
disparity and inconsistency in the National Trails System Act. While 
Congress created the Act in 1968 to foster and sustain a nationwide 
system of trails with a full array of authority necessary for Federal 
agencies to administer them, nine scenic or historic trails have been 
authorized without any Federal land acquisition authority. Federal 
administering agencies lack the fundamental and often essential means 
for protecting the integrity of the resources and the continuity of the 
footpaths for more than one third of the National Trails System, while 
Congress has provided those agencies with such willing seller or 
greater land acquisition authority for the rest of the System, 
including the Old Spanish National Historic Trail authorized in 2002.
    This inconsistency of land acquisition authority severely hampers 
appropriate administration of more than one third of the National 
Trails System. Perhaps the most striking example of this inconsistency 
and disparity is the four national historic trails administered by the 
National Park Service in Salt Lake City, Utah. Currently the Park 
Service has authority to buy land from willing sellers along the 
California and Pony Express National Historic Trails, but is prohibited 
from doing so along the Oregon and Mormon Pioneer National Historic 
Trails.
    This inconsistency seems highly ironic since the four trails share 
the same route across most of Nebraska, Wyoming and Utah. If a 
landowner offers to sell land to the Federal government containing 
historic traces of these four trails it is unclear what authority the 
Park Service has to act upon. With authority to buy land for two of the 
trails but not for the other two, would the conflicting authorities 
cancel each other or would the land be able to be purchased for the two 
trails and the other two left unrecognized on the site? Perhaps this is 
an odd situation, but it illustrates a peculiar and frustrating 
inconsistency in the Trails Act with important consequences for the day 
to day management and protection of these trails.
    S. 324 begins to restore consistency and parity to the National 
Trails System Act by providing willing seller authority for three of 
the nine scenic and historic trails for which land acquisition 
authority is lacking so that Federal agencies will be able to help 
protect their continuity and critical natural and cultural resources 
along them. While S. 324 provides essential authority to help complete 
three of the national scenic trails, to restore consistency and parity 
to the National Trails System Act it is critical that willing seller 
land acquisition authority be provided for all nine trails for which 
Federal agencies currently are prohibited from buying land.
    S. 651 does just that. This bill provides willing seller land 
acquisition authority for the Oregon, Mormon Pioneer, Lewis and Clark, 
Iditarod and Nez Perce National Historic Trails and the Continental 
Divide, Ice Age, North Country and Potomac Heritage National Scenic 
Trails.
    There is real need for Federal agencies to be able to help protect 
the resources and continuity of these trails by acquiring land from 
willing sellers. Of the three trails in the eastern half of the country 
affected by S. 324, the Ice Age, North Country and Potomac Heritage 
Trails, which lie primarily across private land, slightly more than one 
third, about 2421 miles, of their projected 6115 mile length is 
permanently protected for public use. The other national scenic trail 
without Federal land acquisition authority, the Continental Divide 
Trail, mostly crosses public land and is nearly complete. Only about 
113 miles of right-of-way for the Continental Divide Trail remain to be 
acquired. In total these four national scenic trails are projected to 
be more than 9300 miles long when completed, yet 20 years after their 
authorization only about 5500 miles, slightly more than half their 
length, are permanently protected for public benefit. Without the 
ability for Federal agencies to purchase permanent rights of way from 
willing sellers it is unlikely that these trails will ever be the 
continuous pathways intended by Congress.
    The degree of protection of the five national historic trails 
without Federal land acquisition authority is comparable to the 
condition of the four national scenic trails. Only 194 of the 730 
significant sites and segments documented to date along the Oregon, 
Mormon Pioneer, Lewis and Clark, Nez Perce and Iditarod National 
Historic Trails are permanently protected. This amounts to only 26% of 
the recognized places along these trails that can provide visitors 
first hand experience of where important events of our Nation's history 
occurred. The attached table documents the degree of protection of the 
resources and rights of way for each of the nine trails without Federal 
land acquisition authority.
    Without the ability for Federal agencies to acquire sites and 
segments along these nine trails from willing sellers, irreplaceable 
resources and experiences of our Nation's heritage will be lost 
forever. An example of this loss occurred recently on the Ice Age 
National Scenic Trail in Dane County, Wisconsin. Several properties in 
the Towns of Middleton and Verona, totaling about two miles of trail in 
a rapidly urbanizing area, were put up for sale over the past several 
years. Their purchase for the Ice Age Trail would have protected a 
nationally significant portion of the terminal moraine of the most 
recent continental glaciation, providing a stunning opportunity for the 
public to appreciate and enjoy the contrast of two startlingly 
dissimilar landscapes. Lacking buyers able to purchase and protect 
these properties they were subdivided for rural residential 
development. Local government zoning authority was used to preserve a 
narrow corridor for the Ice Age Trail to weave among the luxury homes.
    The chance to permanently protect a critical link in the North 
Country National Scenic Trail in New York was lost in a similar manner. 
At the west end of Watkins Glen State Park, New York there is roughly a 
half mile of private woods, a thin strip along the creek that tumbles 
into the Glen previously belonging to an adjacent farm. To the west of 
the private strip is a long stretch of mostly state forest, protecting 
a days' worth of walking on the North Country Trail. The Department of 
Environmental Conservation (DEC) had been negotiating with the farmer 
over that strip along the creek for years, and he was willing to sell, 
but the DEC was waiting for funding. A willing seller who also seemed 
willing to wait held the property, which would consolidate many miles 
of North Country Trail and protect the border of a park potentially 
beleaguered by development along its edges.
    However, the state waited too long. When they finally had the money 
to buy the land they found that he had sold out, unannounced, to a new 
party who, while he has not thrown out the trail, is not interested in 
selling to the state.
    The willing seller land acquisition authority provided for the 
three trails included in S. 324 and subsequent appropriations from the 
Land & Water Conservation Fund will enable the Federal agencies 
administering them to respond to such conservation opportunities as 
they arise. Each year willing sellers offer for sale many parcels along 
critical segments of these trails.
    The State of Wisconsin has been purchasing land from willing 
sellers to protect segments of the Ice Age and North Country Trails for 
the past ten years, matching Land & Water Conservation Fund money with 
Wisconsin Stewardship Fund money. Four fee title acquisitions, from 40 
acres to 339 acres in size, have been completed by the State to protect 
segments of the North Country Trail over the past four years. The State 
also has acquired two easements for the trail.
    The State of Wisconsin and several counties have spent more than 
$10 million in purchasing land for the Ice Age Trail over the past 
decade. More than three dozen willing sellers have sold their parcels 
of land, ranging in size from 5 acres to 360 acres, for the Ice Age 
Trail. Negotiations are underway with more than a dozen additional 
willing sellers. State and county land agents have mostly been 
responding to landowners who have contacted them offering to sell their 
land. Dealing with these offers from willing sellers has left little 
time to contact others of the hundreds of landowners along the Ice Age 
Trail about their interest in selling land.
    S. 651 and S. 324 provide the authority for Federal administering 
agencies to respond to these and similar opportunities provided by 
willing sellers to acquire land for recreation and education that will 
be appreciated for generations to come. Federal assistance will be a 
necessary complement to all the efforts of private organizations and 
state and local agencies to help protect the three national scenic 
trails aided by S. 324 and the nine national scenic and historic trails 
aided by S. 651.
    Providing willing seller land acquisition authority for the six 
national scenic and historic trails in the West without it will have 
little potential impact on the amount of land owned by the Federal 
government. More than 95% of the Continental Divide National Scenic 
Trail is already on public land. Federal land acquisition for the 
national historic trails is limited by Section 7(a)(2)(g) of the 
National Trails System Act to the identified ``high potential sites and 
segments'': ``For national historic trails, direct Federal acquisition 
for trail purposes shall be limited to those areas indicated by the 
study report or by the comprehensive plan as high potential route 
segments or high potential historic sites.'' These ``high potential 
sites and segments'' are very specific, documented locations along 
these trails.
    In Wyoming, for instance, which is crossed by four of these trails, 
the sites that could be acquired by the Federal government if Congress 
provides willing seller authority are limited to a few areas:

  <bullet> Continental Divide National Scenic Trail: The route of this 
        trail in Wyoming is on public land through Yellowstone National 
        Park, several national forests, and Bureau of Land Management 
        land except for a stretch of 20 miles or so in the 
        ``checkerboard area'' north and south of Interstate 80 near 
        Rawlins. This section of the Continental Divide Trail currently 
        follows highways, but can be moved ``off-road'' by acquiring a 
        right-of-way from the Union Pacific Railroad, which owns all 
        the Sections of private land in the checkerboard between the 
        Sections of public land administered by the Bureau of Land 
        Management. According to BLM staff in Lander and Rawlins, 
        representatives of the Union Pacific Railroad are willing to 
        sell a 100-foot wide easement for the Continental Divide Trail 
        across their land. Acquisition of a trail right-of-way via an 
        easement will add no acres to the fee title holdings of the 
        Federal government in Wyoming.
  <bullet> The ``Comprehensive Management and Use Plan for the Oregon, 
        California, Mormon Pioneer and Pony Express National Historic 
        Trails'' identifies 37 ``high potential sites'' along the 
        Oregon and Mormon Pioneer National Historic Trails in Wyoming. 
        Of these sites, 12 are on private land. Although a precise 
        survey of each site has not been made, National Park Service 
        staff estimate that purchase of either fee title or a 
        conservation easement to 1 to 10 or possibly 20 acres from 
        willing sellers would be sufficient to protect the critical 
        historic resources at each site. The other 25 ``high potential 
        sites'' are on public land or a combination of public and 
        private land.

    Of the 6 ``high potential segments'' of the Oregon and Mormon 
Pioneer National Historic Trails identified in Wyoming, one 15 mile 
long segment is on private land. The other 5 segments, some 268 miles 
of the historic trails, cross a mixture of public and private land.

  <bullet> Nez Perce National Historic Trail: Approximately 99% of the 
        route of this trail in Wyoming is already on public land 
        through Yellowstone National Park, Shoshone National Forest and 
        State of Wyoming land. Of the 137 miles of the one ``high 
        potential segment'' in Wyoming, 135 miles are on public land 
        and 2 miles are on private land.

    In summary, the main impact of willing seller land acquisition 
authority for these trails on Federal and private land ownership in 
Wyoming would be along the one section of the Continental Divide 
National Scenic Trail, one 15 mile long ``high potential segment'' and 
12 ``high potential sites'' along the Oregon and Mormon Pioneer 
National Historic Trails and 2 miles of one ``high potential segment'' 
of the Nez Perce National Historic Trail.
    The need and opportunity to use willing seller land acquisition 
authority will arise at different times for the various trails. For 
some, the authority may not be used for many years or only 
infrequently. For others the need for this authority is more acute and 
it is likely to be used as soon as Congress makes it available and to 
be used often. Although the National Park Service has had authority to 
buy land from willing sellers for more than a decade for the California 
and Pony Express National Historic Trails, no land has been purchased 
to protect sites along these trails. On the other hand, there is a very 
urgent need for the National Park Service to join State and local 
agencies and private land trusts in buying land to provide continuous 
rights-of-way for the Ice Age and North Country National Scenic Trails.
    While the Partnership for the National Trails System is very 
grateful to Senator Levin for introducing S. 324 to provide willing 
seller authority for the Ice Age, North Country, and Potomac Heritage 
National Scenic Trails, we greatly prefer that Congress provide this 
essential authority for all nine national scenic and historic trails 
that lack it. Thus, we ask that you recommend S. 651 for passage to the 
Senate. If it is not possible for some reason to approve S. 651, we ask 
that you pass S. 324, as the Senate did in November of 2002, so that 
some significant progress can be made toward restoring parity and 
consistency within the National Trails System.
     senate bill 635--pioneer national historic trails studies act
    The Partnership for the National Trails System strongly supports S. 
635, The Pioneer National Historic Trails Studies Act, introduced by 
Senator Hatch, and requests that you request the Senate Energy and 
Natural Resources Committee to recommend adoption of S. 635 to the full 
Senate. This bill authorizes the National Park Service to update the 
Feasibility Studies for the Oregon, California, Mormon Pioneer and Pony 
Express National Historic Trails by examining additional routes and 
cutoffs of these trails for possible inclusion in the National Trails 
System. The bill also authorizes the Secretary of Interior, upon 
completion of those studies, to recommend to Congress which of those 
routes and cutoffs qualifies under the National Trails System Act for 
addition to the National Trails System. Congress would then decide 
whether to add the recommended routes and cut-offs to the National 
Trails System. An identical companion bill, H.R. 1051, has been 
introduced in the House of Representatives.
    Considerable research, much of it done by volunteers of the Oregon-
California Trails Association, Mormon Trails Association and National 
Pony Express Association, has documented important routes and cutoffs 
used by the 19th Century travelers of these trails that were not 
recognized in the original feasibility studies. Although those 
feasibility studies and the authorization as national historic trails 
by Congress based upon them recognized the main routes of the four 
trails, many of the ``feeder trails'' at the eastern ends and 
``dispersal routes'' at the western ends of them were not recognized. 
To preserve to the fullest extent all the historic and cultural 
resources associated with these important routes of development of the 
United States and to present the richness of their stories as 
completely as possible, it is essential and right that the National 
Park Service should be authorized to evaluate all their routes and 
cutoffs for possible inclusion in the National Trails System.
    Several important ``main routes'' were not included in the original 
feasibility studies. The Cherokee Trail, for instance, included in S. 
635, was an important route used by Native Americans to travel from 
Indian Territory to the gold fields of California. To overlook this 
significant, but probably not widely appreciated, chapter of our 
history would be a very unfortunate oversight. Examination of the 
Cherokee Trail for possible national recognition will allow the 
opportunity for many more Americans to more fully understand the range 
of aspirations of some 19th Century Native Americans.
    The understanding of our history and the diverse cultures it has 
produced is not static. Rather, like a living organism it is dynamic 
and grows with new discoveries and re-interpretations of previous 
information. As a Nation we are much richer and stronger because of 
such advances in the understanding of our history that enable us to 
more fully appreciate both the contributions of the many peoples and 
cultures that have inhabited our land before us and the injustices 
brought upon them through ignorance, prejudice and greed.
    Our National Trails System should be in the forefront of 
recognizing the full stories of our past, as we are best able to 
understand them and to preserve the physical reminders of those stories 
to the fullest extent possible.
    S. 635 and H.R. 1051 provide the opportunity to update the 
Feasibility Studies for these four trails to reflect significant new 
research since the original studies were completed. The bills are a 
necessary opportunity to assure that significant components of our 
history are recognized and preserved to enrich our understanding of our 
past and to provide the opportunity for future generations to do so, 
too.
    The Partnership urges you to recommend adoption of S. 635 to your 
colleagues on the Energy and Natural Resources Committee and to the 
full Senate.
    The Partnership for the National Trails System appreciates the 
prompt consideration you have given to S. 324, S. 651 and S. 635 and 
the opportunity to provide these comments in support of them for the 
hearing record. We urge you to promptly recommend passage of this 
legislation important for restoring consistency to the National Trails 
System Act and for authorizing a study of the feasibility of adding 
important components to existing national historic trails.

          STATUS OF NINE NATIONAL SCENIC AND HISTORIC TRAILS WITHOUT FEDERAL LAND ACQUISITION AUTHORITY
----------------------------------------------------------------------------------------------------------------
        National scenic trail             Projected length          Protected length        Unprotected length
----------------------------------------------------------------------------------------------------------------
Continental Divide Trail............  3,200 miles               3,087 miles                113 miles
Ice Age Trail.......................  1,200 miles                 405 miles                795 miles
North Country Trail.................  4,200 miles               1,551 miles              2,649 miles
Potomac Heritage Trail..............    715 miles                 465 miles                250 miles
                                     ---------------------------------------------------------------------------
    Total...........................  9,315 miles               5,508 miles              3,807 miles
----------------------------------------------------------------------------------------------------------------


------------------------------------------------------------------------
                                      No.        Protected   Unprotected
    National historic trail       significant      sites/        sites/
                                sites/segments    segments     segments
------------------------------------------------------------------------
Iditarod Trail................      approx. 75        11      approx. 64
Lewis & Clark Trail...........     approx. 270       123     approx. 147
Mormon Pioneer Trail..........              88         6              82
Nez Perce Trail...............              80        40              40
Oregon Trail..................             217        14             203
                               -----------------------------------------
    Total.....................             730       194             536
------------------------------------------------------------------------

    The figures given are the most accurate available; however they are 
approximate for all of these trails. Improvements in mapping techniques 
and historic research are increasing understanding of the full nature 
of these trails and the resources upon which they are based.
    S. 324 provides ``Willing Seller'' land acquisition authority to 
Federal agencies for three of these nine trails: Ice Age, North Country 
and Potomac Heritage National Scenic Trails.
    S. 651 provides ``Willing Seller'' land acquisition authority to 
Federal agencies for all of these nine trails. May 1, 2003

    Senator Thomas. Very good, thank you.
    Ms. Bower, you are on my list second here.

 STATEMENT OF DRU BOWER, VICE PRESIDENT, PETROLEUM ASSOCIATION 
                     OF WYOMING, CASPER, WY

    Ms. Bower. That is just fine, wherever you want to put me. 
Thank you for having me here today. I am the vice president for 
the Petroleum Association of Wyoming, specializing in public 
land issues. I also represent several agricultural and oil and 
gas associations doing business in the State of Wyoming.
    Wyoming has the most miles of historic trails of any State 
in the West. What I like to say is that everybody came to 
Wyoming, but nobody wanted to stay.
    [Laughter.]
    Senator, you know that is true.
    Former President Clinton signed an executive order, Trails 
for America in the 21st century, which was signed January 18, 
2001. It outlined the directives to protect trail corridors and 
ensure that values for each trail were established and remained 
intact. In May 2001, Wyoming BLM announced its intent to 
implement interim guidance for managing surface-disturbing 
activities in the vicinity of national historic trails, to 
expand protection of viewsheds associated with congressionally 
designated trails. The four congressionally designated trails 
that would have been most affected by these new guidelines, and 
placed the largest burdens on private enterprise, were the 
Oregon, California, Mormon Pioneer, and Pony Express trails.
    Currently in Wyoming, the controlled surface use 
stipulation contained in the existing BLM resource management 
plan for protection of congressionally designated historic 
trails mandates that the area within a quarter mile or the 
visual horizon, whichever is less, is to be an avoidance area 
for surface-disturbing activities. Wyoming BLM's May 21, 2001 
interim guidance document arbitrarily extended the surface-
disturbing avoidance are beyond the current quarter mile 
restriction contained in the existing resource management plan 
to as far as five miles on either side of a congressionally 
designated trail.
    This proposed policy change would have imposed an extreme 
adverse effect on agriculture, the development of oil and gas, 
and private property rights. This Wyoming BLM interim guidance 
was eventually withdrawn. However, that interim guidance, if 
indicative of the direction BLM intends to take, clearly 
demonstrates why private landowners, agriculture and other 
business interests in Wyoming were and remain very concerned 
regarding the congressional designation and protection of 
historic trails.
    The agency is currently developing a trail management plan 
for the congressionally designated trails which will be subject 
to public review and eventually amended to a resource 
management plan. There are two separate issues that we are 
faced with in managing for trails and trail viewsheds. The 
first being the protection of the actual trail, which there is 
a current quarter mile stipulation or visual horizon, whichever 
is less. The second issue is the protection of viewshed or 
visual resource management stipulation, which is extremely 
subjective as you alluded to earlier, Senator.
    Currently, there are no permit requirements to use or 
access the trails, and in most areas, there is no off-road 
vehicle restriction. Therefore, the general public can access 
the trails for recreation, hunting, off-road vehicle use, 
without any enforcement from the agency. On the other hand, the 
agencies want to restrict and protect access to trails and 
trail viewsheds from agricultural and oil and gas development. 
This presents a situation where the agency can manage only 
those entities that they can control, which are permitted uses. 
This philosophy seems to be unbalanced.
    For decades, ranchers have used these trails for the 
purposes of moving cattle and sheep to provide good land 
stewardship and prevent overgrazing. In some instances it is 
because of this activity that the trail segment still exists 
today. Agencies should look closely to make sure that in its 
rush to preserve history, it does not actually facilitate the 
demise of many portions of the trail system, leaving nothing 
more than a written memory.
    Even more troublesome than the potential expansion of 
viewshed protection is the agencies' current practice of 
applying the same criteria to trails that have not been 
congressionally designated. For example, the Cherokee and 
Overland, which have the same quarter mile restriction on 
either side or visual horizon, whichever is less.
    Any future consideration of congressional designations of 
these two trails in Wyoming must take into account the fact 
that these two trails go through what is know as checkerboard 
or the land grant area in southwest Wyoming.
    We do understand that Federal land managers have a 
responsibility to manage public lands for all uses and that the 
managers must analyze for the cumulative effects of a proposed 
action regardless of land ownership. However, we do not believe 
Federal land managers have the authority to manage private 
properties or cultural resources or historic trails.
    Trails were not designed to preserve the West, deny private 
property rights or limit progress.
    The subcommittee is considering enactment of S. 324 and S. 
651. We would like to reiterate our concern with any potential 
legislation that would authorize acquisition of private land. 
Regarding willing sellers, the subcommittee must consider 
measures that protect the surrounding private landowners and 
their property.
    The subcommittee is also considering S. 634 and S. 635. If 
it is determined that any of these trail segments are, in fact, 
located in Wyoming, we do not believe they should be studied or 
designated at this time.
    There are differing opinions as to the identification of 
trail and trail segments that warrant congressional designation 
under the National Historic Trails Act. The Petroleum 
Association of Wyoming continues to work with trail enthusiasts 
in Wyoming and we do not oppose national historic trail 
designations. However, it is the management prescriptions to 
protect the trail and trail viewshed that is concerning. For 
those whom I appear before you today, it is our position that 
until BLM has completed the trail management plan, it has been 
subjected to public review, and is amended to the resource 
management plan, no new trails or trail segments should be 
congressionally designated or studied in Wyoming at this time.
    Mr. Chairman and members of the subcommittee, thank you 
again for the opportunity to share with you our perspective 
regarding historical trails in Wyoming.
    [The prepared statement of Ms. Bower follows:]

Prepared Statement of Dru Bower, Vice President, Petroleum Association 
                         of Wyoming, Casper, WY

    Mr. Chairman and members of the Subcommittee, my name is Dru Bower 
and I am the Vice President of the Petroleum Association of Wyoming 
(PAW), specializing in public land issues. PAW would like to thank the 
Subcommittee on National Parks of the Committee on Energy and Natural 
Resources for the opportunity to testify regarding Senate bills 324, 
634, 635, and 651 which pertain to different aspects of historic trail 
designations and willing sellers for certain trail segments in the 
National Trail System.
    PAW is Wyoming's oldest and largest trade organization, the members 
of which account for over ninety percent of the natural gas and over 
eighty percent of the crude oil produced in the State. PAW is 
recognized as Wyoming's leading authority on petroleum industry issues 
and is dedicated to the betterment of the state's oil and gas industry 
and public welfare.
    The following organizations are also in support of, and a party to, 
this testimony: Wyoming Stock Growers Association, Wyoming Wool Growers 
Association, Wyoming Farm Bureau Federation, Public Lands Advocacy, and 
the Independent Petroleum Association of America.
    The Wyoming Stock Growers Association, with over 1,200 members, has 
represented the Wyoming cattle industry for over 130 years. It is their 
mission ``to serve the livestock business and families of Wyoming by 
protecting their economic, legislative, regulatory, judicial, 
environmental, custom and cultural interests.'' Management of historic 
trails on both private and public lands has and will continue to impact 
Wyoming ranching families and businesses.
    The Wyoming Wool Growers Association represents the interests of 
the lamb and wool producers of Wyoming and has done that for nearly one 
hundred years. Its membership consists of over 80% of the active sheep 
producers of Wyoming, as well as many out-of-state producers as well. 
It focuses its efforts in four broad areas: (1) governmental policy and 
the effects of such on the industry; (2) enhancement of returns to 
producer operations; (3) protection of producers interests and rights; 
and (4) educational efforts regarding and relating to the sheep 
industry and Wyoming agriculture in general.
    The Wyoming Farm Bureau Federation is the largest farming and 
ranching organization in the State. There are approximately 9,000 total 
members in Wyoming.
    Public Lands Advocacy is a non-profit organization whose members 
include major and independent petroleum companies as well as non-profit 
trade and professional organizations that have joined together to 
foster the interests of the oil and gas industry relating to 
responsible and environmentally sound exploration and development on 
federal lands.
    Founded in 1929, the Independent Petroleum Association of America 
represents America's thousands of independent oil and natural gas 
producers and service companies. Independent producers drill 85 percent 
of the wells in the United States and produce 65 percent of the 
nation's natural gas and 40 percent of the crude oil (60 percent in the 
Lower-48 states).
    Wyoming is a uniquely rural state comprised of 97,914 square miles 
and is the ninth largest state in the Union. Lands in the state, which 
are owned and controlled by the federal government equate to 
approximately forty-nine percent (49%) of the surface and sixty-six 
percent (66%) of the mineral estate. These federal lands are managed by 
agencies such as the National Park Service (NPS), United States Forest 
Service (USFS) and the Bureau of Land Management (BLM). The remaining 
51% of the surface and 34% of the mineral estate are owned by private 
entities, the State of Wyoming and the Tribes.
    Agriculture and the oil and gas industries have been operating in 
Wyoming since before statehood. These industries provide a solid job 
base for residents and generate a significant portion of the state's 
revenue. This revenue funds education and other programs and services 
that could not otherwise be supported absent substantial new taxes on 
the state's residents.
    Last year, the oil and gas industry alone accounted for 
approximately 50% of the assessed valuation of property in Wyoming. 
This translates into approximately $1,900 of taxes paid for every 
Wyoming resident. The mineral industry (oil, gas and mined minerals) 
provides over 60% of the total education budget, and 65% of Wyoming's 
total annual budget. The petroleum industry directly employs nearly 
21,000 jobs. If one concludes that there are three (3) indirect jobs 
for every direct job, the result is 63,000 indirect jobs. Combined, a 
total of 84,000 jobs are attributable to oil and gas development in the 
state and the 2000 Census reported that there are approximately 494,000 
people living in Wyoming. Using this calculation, the petroleum 
industry directly and indirectly employ's 17% of the residents in the 
State.
    Wyoming is also the largest contributor to the federal onshore 
minerals program with a submission of approximately $778 million in 
fiscal year 2002 from rents, royalties, and bonus bids from mineral 
development activity on public lands. Fifty percent (50%) of that total 
is allocated back to the state. In Wyoming, as with many other western 
states, access to public lands is critical for the very survival of the 
state's economy, maintaining quality jobs, sustaining a reasonable tax 
base and providing a revenue stream for state and local governments.
    Wyoming has the most miles of historic trails of any state in the 
West. There are five (5) congressionally designated trails in Wyoming. 
Those are the Nez Perce Trail, which runs through Yellowstone National 
Park, and the Oregon, California, Mormon Pioneer, and Pony Express 
Trails, which traverse east to west across central and southern 
Wyoming.
    As background information, former President Clinton's Executive 
Order 13195, ``Trails for America in the 21st Century'', was signed on 
January 18, 2001. The Executive Order outlined the directive to protect 
``(b) the trail corridors associated with national scenic trails and 
the high priority potential sites and segments of national historic 
trails to the degrees necessary to ensure that the values for which 
each trail was established remain intact (c) Coordinating maps and data 
for the components of the national trails system and Millennium Trails 
network to ensure that these trails are connected into a national 
system. . . .'' The Millennium Trails network allows for the 
classification of National, Legacy, or Community Millennium Trails.
    Depending on the protection measures eventually developed by 
federal land managers, implementation of the Executive Order could 
significantly curtail economic and resource development in Wyoming and 
across the West.
    For example, in May of 2001, Wyoming BLM announced its intent to 
implement interim guidelines (Interim Guidance for Managing Surface-
Disturbing Activities in the Vicinity of National Historic Trails) to 
expand protection of viewsheds associated with congressionally 
designated trails and provide management recommendations and 
prescriptions for specific trail segments and sites that are eligible 
for listing on the National Register of Historic Places.
    The four congressionally designated trails that would have been 
most affected by these new guidelines, and correspondingly placed the 
largest burdens on private enterprise, are the Oregon, California, 
Mormon Pioneer, and Pony Express. These trails have a combined length 
of 1,260 miles as they cross the state.
    As a matter of information, the National Park Service oversees the 
National Trail System; however, where BLM lands exist and the trails 
traverse these lands, BLM is the managing agency of those trails and 
implements protection measures associated with multiple uses on those 
lands.
    Currently, the Controlled Surface Use (CSU) stipulation, contained 
in the existing BLM Resource Management Plans (RMP) for protection of 
congressionally designated historic trails, mandates that the ``area 
within 1/4 mile or the visual horizon, (whichever is less) is to be an 
avoidance area for surface disturbing activities''. In essence, the 
stipulation, where applied, could place a ``no surface occupancy'' 
(NSO) requirement on lands adjacent to trail segments. However, in some 
cases, BLM in Wyoming is currently insisting on mitigation beyond the 
present 1/4 mile CSU. Mitigation in this case is not always an NSO 
stipulation but may include requirements such as moving locations, 
using low profile equipment and/or off-site funding of such things as 
web sites, trail markers and GIS documentation on segments of the trail 
that are not affected by the project proposal.
    Certain segments of historic trails still maintain visual settings 
similar to that which was present when the trail was used for 
settlement of the West. These are the areas in which the strongest 
efforts to restrict man-made intrusions beyond 1/4 mile is occurring. 
As a result, concurrent resource uses are usually placed in a 
subservient position. While we recognize the desire to preserve the 
historical integrity of these areas, some land managers should also 
take into consideration the effect of restrictions on efficient 
recovery of minerals and management of other uses such as development 
of water resources and fencing for grazing management.
    Important segments of our National Historic Trails exist today in a 
largely undisturbed condition as a result of the stewardship of both 
public and private lands by generations of ranchers. Today, many of 
these same ranchers feel threatened with the loss of needed flexibility 
in their operations due to excessive constraints placed on them in the 
name of trail viewsheds.
    The Executive Order does not specifically define the extent or the 
parameters that a ``trail corridor'' should be protected. Instead, the 
federal land managers are in the process of establishing ``viewshed 
protection'' through the development of guidance documents.
    For example, Wyoming BLM's May 2001 interim guidance document 
arbitrarily expanded the surface disturbing avoidance area beyond the 
current 1/4 mile restriction contained in existing RMPs to as far as 
five (5) miles on either side of a congressionally designated trail. 
This proposed policy change for viewshed management around historic 
trails was a major land use action that would have imposed an extreme 
adverse effect on agriculture, the development of oil and gas and 
private property rights within an area of up to 12,000 square miles.
    This Wyoming BLM interim guidance was eventually withdrawn. 
However, despite some guidance contained in that document for 
determining the integrity of the trail, the process contained inherent 
flaws of subjectivity and in some cases, reflected individual desires 
rather than adherence to guidelines or directives. That interim 
guidance, if indicative of the direction BLM intends to take, clearly 
demonstrates why private landowners, agriculture and other business 
interests in Wyoming were, and remain, very concerned regarding the 
congressional designation and protection of historic trails.
    The BLM has withdrawn the 2001 Instruction Memorandum and is 
currently developing a Trail Management Plan (TMP) for Congressionally 
Designated National Historic Trails, which will be subject to public 
review and eventually amended to the existing Resource Management 
Plan's. It is BLM's intent that this TMP will outline guidelines for 
managing congressionally designated trails and appropriate stipulations 
for trail and trail viewshed protection.
    There are two separate issues that we are faced with in managing 
for trails and trail viewsheds, the first being the protection of the 
actual trail. We believe that the protection measure in place, which 
implements an avoidance area of a 1/4 mile on either side of the trail 
or visual horizon (whichever is less), is sufficient in its protection 
of the trail for oil and gas activity and should not be expanded. The 
second issue is the protection of the viewshed or the Visual Resource 
Management (VRM) stipulation. This restriction is placed on activities 
outside of the 1/4 mile on either side of the trail. It is this 
stipulation that is even more concerning and can be highly subjective 
in working with land managers.
    Currently, there are no permit requirements to use or access the 
trails, and in most areas there is no off-road vehicle (ORV) 
restriction. Therefore, the general public can access the trail for 
recreation, hunting, ORV use, etc. without any enforcement from the 
agency. On the other hand, the agencies want to restrict and protect 
access to the trail and trail viewshed from agriculture and oil and gas 
development. This presents a situation where the agency can manage only 
those entities that they can control, which are permitted uses 
(agriculture, oil and gas activities). This philosophy seems to be 
unbalanced.
    When, and if, guidelines are eventually adopted, we agree that the 
agencies responsible for management of the trails should have to 
develop such guidelines within the parameters of the land management 
planning process. If it is determined that the historic integrity of 
the trail segment has been compromised, then the land management 
agency, along with the historic preservation officer, should 
immediately be directed to pursue a determination of No Adverse Effect, 
with the provision that no additional impacts to the physical segment 
of the trail occur. This action would facilitate timely development and 
utilization of other resources in the immediate area.
    For those areas where visual intrusions are similar to the historic 
period of the trail, historical significance and scenic integrity 
should not be the sole factor in determining the extent to which the 
trail setting is to be protected. Other equally important factors are 
the mineral potential of the area and considerations of effective 
management of other resource uses that are dependent on the area in 
question.
    For those oil and gas organizations for whom I appear before you 
today, we maintain that the current controlled surface use (CSU) 
stipulation (interpreted by some land managers as a ``no surface 
occupancy'' stipulation) within 1/4 mile on each side of the specified 
trail segments satisfies the Executive Order for protection of the 
``trail corridor'' and ``trail values'' and no adverse impact will 
occur due to development or utilization of the adjacent natural 
resources. In our opinion, subsequent land use plans should affirm but 
not expand this level of protection for oil and gas development. 
Further, land managers should have the discretion to issue an exception 
to the 1/4 mile parameter on any portion of a trail that has been 
obliterated or compromised through the passage of time.
    A blanket application of the 1/4 mile restriction to every mile of 
every trail is not practical or justifiable. Additionally, many trail 
segments are adjacent to existing structures, roads, mineral extraction 
points and interstates. These segments do not warrant any expanded 
restriction.
    Title 16 USC, Chapter 27, Section 1246(a)(2) provides, in part, 
``Provided, That in selecting the rights-of-way full consideration 
shall be given to minimizing the adverse effects upon the adjacent 
landowner or user and his operation. Development and management of each 
segment of the National Trails System shall be designed to harmonize 
with and complement any established multiple-use plans for that 
specific area in order to insure continued maximum benefits from the 
land.'' Agriculture's experiences of the past several years in Wyoming 
with ever-expanding viewsheds are clearly inconsistent with this 
mandate.
    A member of the agriculture community recently related an 
experience in seeking approval for a livestock water well that is 
desperately needed in this time of severe drought. After a total of 
five visits to the area with BLM personnel over a period of one year to 
identify a site, a location with an acceptable impact on the viewshed 
was finally designated. In the words of the grazing permittee, ``This 
is an untenable situation, but we as permittees are also at their mercy 
if we wish to see any improvements made. We have all been tiptoeing 
around trying not to anger the 'cultural and trail Gods'.''
    For decades, ranchers have used these trails for the purposes of 
moving cattle or sheep to provide good land stewardship and prevent 
overgrazing. In some instances it is because of this activity that 
trail segments still exist today. Agencies should look closely to make 
sure that in its rush to preserve history, it does not actually 
facilitate the demise of many portions of the trail system, leaving 
nothing more than a written memory.
    Even more troublesome than the potential expansion of the viewshed 
protection is the agencies' current practice of applying the same 
criteria to trails that have not been congressionally designated. For 
example, even though Congress has not acted by officially designating 
the Overland and Cherokee Trails, these trails are currently subject to 
the same restrictions as are congressionally designated trails (an 
avoidance area of , mile or visual horizon, whichever is less).
    Any future consideration of congressional designation for these two 
trails in Wyoming must take into account that such action and the 
resulting management alternatives would be significantly complicated by 
the fact that these two trails travel through what is known as 
``checkerboard'' or the ``land grant'' area located in southern 
Wyoming.
    In the 1860's, the federal government granted every other section 
of land for twenty (20) miles on each side of the main line, both 
surface and subsurface estates, to Union Pacific as an incentive to 
build the transcontinental railroad.
    To raise funds for construction and operation of the railroad, the 
railroad sold much of the original land grant acreage to private 
individuals. Consequently, every other section of land over which large 
portions of the Overland and Cherokee Trails pass belongs to entities 
other than the federal government. Because these trails pass through 
private lands, designation of these trails may encourage parties to 
trespass on private land. Congress and the federal land managers need 
to be mindful of this fact when developing management practices where a 
significant portion of the area is not controlled by the federal 
government.
    Further, these private lands are used by enterprises engaged in a 
host of activities including agriculture and mineral development--
activities which are the backbone of the state and local economies. 
While federal restrictions on protective areas around trails might 
theoretically be limited to just those lands administered by the 
federal government, this is not always the case. Because of this 
checkerboard land pattern, agriculture and mining alike must work with 
federal land managers to acquire rights-of-way across federal lands to 
access such things as ranching property, lambing sheds, meadows, 
watering sites, drill locations and avenues to take produce to markets.
    When developing Environmental Assessments and Environmental Impact 
Statements in response to proposed activities on federal lands, 
agencies must analyze, among other issues, for cumulative impacts, 
regardless of land ownership. Agencies often use this process to 
``urge'' the applicant to commit to additional, ``voluntary'' 
mitigation measures regardless of land ownership. If the applicant 
agrees to the committed measures, ``conditions of approval'' are 
created. Should the applicant oppose the additional ``voluntary'' 
mitigation measures on private land, the project may be denied or 
delayed to the point where surrender is all but assured. If the project 
is approved with ``voluntary'' mitigation measures, regardless of land 
ownership, the private landowner may be denied access based on the fact 
he does not accept the ``condition of approval''. In either case, the 
project stopped. This misuse of a law to obtain regulatory control over 
private land is troubling to both the agriculture and petroleum 
industries.
    We understand federal land managers have a responsibility to manage 
public lands for all uses and that the managers must analyze for the 
cumulative effects of a proposed action regardless of land ownership. 
However, we do not believe federal land managers have the authority to 
manage private property for cultural resources or historic trails.
    Trails were carved out of a hostile territory to settle the West, 
provide better economic opportunities, and improve living conditions 
for our emigrants. Trails were not designed to preserve the West, deny 
private property rights or limit progress.
    The Subcommittee is considering enactment of S. 324 and 651. We 
would like to reiterate our concern with any potential legislation that 
would authorize acquisition of private land. The National Trails System 
Act envisions acquisition of private lands from willing sellers or 
donors through purchase, gift or exchange. However, Congress has 
further granted condemnation authority to the appropriate Secretary. As 
is so often the case, a rancher or farmer whose operation is dependent 
on federal grazing permits and/or water allocations and who faces 
possible condemnation unwillingly becomes a ``willing seller''. The 
rights of private landowners and the opportunity to maintain or create 
economic opportunities should be acknowledged and protected.
    Regarding willing sellers, the Subcommittee should consider the 
following: 1) In order for the willing seller to manage and access 
private lands surrounding the trail segment, the seller should be 
allowed to continue to cross the trail as necessary; 2) It is the 
intent of the federal agencies to acquire these trail segments from the 
willing seller not only to preserve them but for public enjoyment. The 
willing seller should be indemnified of injury should the public be 
injured on the trail or if the public leaves the trail and are injured 
on the willing sellers private property; 3) The federal agencies should 
be required to provide property protections, rules and regulations to 
address potential damages to private property by trail users; and 4) 
The federal agencies should indicate that a failure or breach by the 
agencies to provide the above mentioned points will be grounds for the 
willing seller or its assignee to revoke and void the sale, easement, 
etc.
    The subcommittee is also considering S. 634 and S. 635. As we read 
the proposals, we do not believe the request to study the Cherokee 
Trail segment in the central route (S. 635, Section 5A(e)(2)(A)) refers 
to any portion within the borders of Wyoming. If it is determined this 
trail segment is in fact located in Wyoming, we do not believe it 
should be studied at this time.
    There are differing opinions as to the identification of trails and 
trail segments that warrant congressional designation under the 
National Historic Trails Act. PAW continues to work with trail 
enthusiasts in Wyoming and we do not oppose National Historic Trail 
designations; however, it is the management prescriptions to protect 
the trail and trail viewshed that is concerning. For those whom I 
appear before you today, it is our position that until BLM has 
completed the Trail Management Plan, it has been subjected to public 
review and is amended to the Resource Management Plans, no new trails 
or trail segments should be congressionally designated or studied in 
Wyoming, including the Sublette Cutoff (S. 635, Section 5A(g)(3)).
    For those organizations referenced above which are supporting this 
testimony, we conclude the following:

  <bullet> Support the recognition of historical trails;
  <bullet> Support protecting our nation's history;
  <bullet> Oppose any additional congressional designations or studies 
        of trails or trail segments in Wyoming until BLM has completed 
        the Trail Management Plan, it has been subjected to public 
        review and is amended to the Resource Management Plans;
  <bullet> Oppose de-facto management of trails and trail viewsheds not 
        designated by Congress;
  <bullet> Oppose expansion of the trail protection area (for all 
        trails) beyond the current 1/4 mile or the visual horizon; 
        whichever is less, stipulation until the Trail Management Plan 
        in Wyoming is completed;
  <bullet> Oppose management alternatives, which infringe or limit 
        private property rights;
  <bullet> Oppose policies and actions, which limit or restrict rights 
        under valid existing leases; and
  <bullet> Oppose policies and actions, which limit maximum recovery of 
        natural resources and multiple use of our public lands.

    Mr. Chairman and members of the Subcommittee, thank you again for 
the opportunity to share with you our perspective regarding historical 
trails in Wyoming.

    Senator Thomas. Thank you very much.
    Mr. Cioffi.

         STATEMENT OF DAVE CIOFFI, LANDOWNER, ETNA, NH

    Mr. Cioffi. Thank you. I am Dave Cioffi, a landowner from 
Etna, New Hampshire. We have family land, and about 135 acres 
that was affected by the Appalachian Trail.
    I wish I could turn this meeting back 25 years ago to 1978, 
sitting here listening to the National Park Service tell you 
that they had no plan for the Appalachian Trail. I and the 
neighbors told them that as they went through Hanover. 
Likewise, using eminent domain was leveraged by everybody in 
our community organizations.
    At any rate, what I want to do is just read from the 
beginning of my prepared remarks that I put into the committee 
hearing as testimony, and then just point to a few things. 
Basically I am here to show you, or to tell you a little bit 
about what it is like to have gone through the process of being 
threatened with eminent domain.
    I welcome the opportunity to appear before your committee. 
I am a member of a family that has undergone a long, personally 
time consuming and mentally exhausting ordeal with the National 
Park Service and its associates. Specifically, our experience 
was with the National Trails System Act regarding the 
relocation of the Appalachian Trail through Hanover, New 
Hampshire during the period from 1978 through 1983.
    I am thankful that that part of my life is over, and it 
finally ended in a win-win situation for us, the National Park 
Service and the hikers who now enjoy the Appalachian Trail as 
it passes through our family land. Somehow, I survived this 
experience without losing my sense of humor or submitting to 
gray hair before my time. But this would not have been the 
situation if we had simply rolled over and not stood our ground 
when the National Park Service and its associates moved into 
our village, the Village of Etna, which is part of Hanover, to 
carve out a route for the Appalachian Trail.
    The mistake they made was to work very closely with local 
organizations like a local conservation commission, Appalachian 
Trail Conference, local conservation council, and a local 
educational institution, Dartmouth College, that supported 
their endeavors for their own selfish reasons, because of the 
power and influence they asserted in the local community. That 
is why the National Park Service worked particularly with us.
    Meanwhile, most affected landowners, like our family, were 
not consulted during the early stages of designing the foot 
path. That mistake at the outset dragged the process on much 
longer than it would have if they had kept landowners informed 
and listened attentively to our needs with regard to our land.
    I am here to encourage your committee to support the bill 
and shepherd it successfully through the legislative process to 
amend the National Trails System Act, to clarify Federal 
authority relating to land acquisition from willing sellers for 
certain trails in the National Trails System. Indeed, this will 
save time, money and needless aggravation for all concerned.
    Basically what I submitted to you was some documents I have 
pulled from a file during our 5-year ordeal, but I just wanted 
to point them out and relate to you how they affected us as a 
landowner.
    In the first instance, I am showing you a letter from the 
Dartmouth Outing Club, and it is coming to us on Dartmouth 
Outing Club stationery. In fact, it is a National Park Service 
employee who is using Dartmouth Outing Club stationery, using 
their office, and using their telephone number. In our 
community, when you get something from the Dartmouth Outing 
Club, you know, you deal with it or you do not deal with it. 
They are always trying to put trails around, sometimes it is 
okay and sometimes it is not.
    So when we get a letter like this, our family got a letter 
like this, we did not treat it very seriously. We had no idea 
this guy was a National Park Service employee. But then we 
began getting suspicious because there were flags on our land, 
and we wondered how these flags got out there because we never 
had given permission for flags to be out there. So we put two 
and two together at some point and said ah, now we know what is 
going on, there is something going on with the Appalachian 
Trail. Because frankly, the Appalachian Trail never crossed our 
property, it was up in the back.
    At any rate, I have a neighbor who has land contiguous to 
ours and we got together and started to investigate this. He 
said, you know, what kind of study has gone on here. When we 
take a look at this map, and we see you are avoiding all these 
public trails that we already have, we have these trails that 
cross over, including land that was purchased by heritage 
funds, has anybody taken a look at a northern route to the 
Appalachian Trail?
    And the answer was no, not really, but if you guys want to 
do it, we will give you some maps, you have 30 days, and we 
will do an environmental assessment. This was back in the 
summer of 1980. We said fine, give us the maps, we will go 
right at it. And we did that. What we did was map a trail that 
we considered to be a northern route. We knew when the trail 
came across the bridge out of Vermont, comes underneath the 
interstate highway, you come across the Connecticut River, we 
knew at some point you have to cross the Connecticut River back 
there, so we knew there was a trail up that way.
    At any rate, what happened was that the Park Service put 
together what they called an environmental assessment. They got 
a bunch of people to go out and hike the trail we had routed, 
plus the trail they had, and they prepared a report. It was 
interesting, because the document they carried with them to 
make points on the study that each of them was going to do said 
AT preferred route, and then northern route. And the people who 
did the--they would not let us participate in this 
environmental assessment unfortunately. But it was the 
president of the Hanover Conservation Council and his wife, a 
member of the Appalachian Mountain Club and his wife, a member 
of the Hanover planning board and his Boy Scout son, the 
Appalachian Trail Conference representative, and the Hanover 
Conservation Council representative. We did not have anybody in 
there to make comments, just to show you the modus operandi of 
the National Park Service when they have this thing hanging 
over you of eminent domain.
    The next item I want to show you is a letter on the 
stationery of the Office of the President, State University, 
Cortland, New York. This is someone who lived behind me, his 
land is contiguous to me. He has since passed away. But for 
some reason back in March 1978, he knew what the heck was going 
on. We did not know what was going on until we got this letter 
in June 1978. And how did I find out about this? I found out 
about this because I got suspicious throughout this and went 
down to Concord, New Hampshire and started digging into the 
Appalachian Trail files, and I found this letter.
    And I wondered why the National Park Service would not go 
where I wanted them to go through my land, and that was on the 
back boundary which bounded his land, so we could share the 
corridor. So anyway, this was a letter he wrote to the guy who 
was directing the trail.
    Senator Thomas. Can you kind of sum up now please?
    Mr. Cioffi. What I want to show you is that if you do not 
have someone who is looking after landowner rights, then these 
are the kinds of things that can happen to a landowner, because 
they are very good at putting groups together to take land away 
from the landowner. And if you do not have an eminent domain, 
they will work much closer with the landowner. And when you 
work closely with the landowner in the beginning and bring him 
into the study, you will find out what the landowner considers 
to be important on his land so when you put the path through, 
you do not affect it as much as you would.
    With regards to the width of the foot path, you were asking 
the question, and the foot path itself is 150 feet through our 
land, and there is a 100-foot easement on both sides of the 
footpath, so it is less than they were originally looking at. 
They compromised and they came down to 350 feet. The reason why 
they compromised is because we made connections through the 
National Inn Holders Association that got us the ability to 
come down to Washington into the Interior Department and debate 
the folks that put the trail together, and brought maps of 
other landowners who said here is where the trail can go 
through our land, start compromising with us. And in effect 
that is what happened. We went back to Hanover, the National 
Park Service came back, compromised.
    The trail wound up on my back corridor. My neighbor was 
able to keep the foot path out of his pasture in the summer 
where he had cattle, so the path goes around the pasture, and 
in the winter they can come through the field if they want to 
cross it.
    [The prepared statement of Mr. Cioffi follows:]

         Prepared Statement of Dave Cioffe, Landowner, Etna, NH

    Dear Senator Thomas and Committee, I welcome the opportunity to 
appear before your Committee. I am a member of a family that has 
undergone a long, personally time consuming and mentally exhausting 
ordeal with the National Park Service (NPS) and its associates. 
Specifically our experience was with the National Trail System Act 
regarding the Appalachian Trail (AT) through Hanover, NH during the 
period 1978-1983. I am thankful that phase of my life is over and it 
ended in a win-win situation for us and the hikers who now traverse the 
Trail as it passes through our family land. Somehow I survived this 
experience without losing my sense of humor or submitting to gray hair 
before my appointed time. But this happy ending would not have been the 
situation if we had simply thrown in the towel and not stood our ground 
when the National Park Service (NPS) and its associates moved into our 
village to carve out a new route for the AT. The mistake they made in 
our view was to work very cozy with local organizations (Conservation 
Commission) and a local educational institution that supported their 
endeavors for their own selfish reasons because of the power and the 
influence they exerted in the local community. Their mantra was the 
Trail was a great idea as long as it had little or no affect on their 
land. Meanwhile most affected landowners like our family were not 
consulted during the early stages of designing the footpath. That 
crucial mistake at the outset dragged the process on much longer than 
it would have if they had kept landowners informed and listened to our 
concerns.
    I am here today to encourage your Committee to support Bill S. 324 
and shepherd it successively through the legislative process to amend 
the National Trail System Act to clarify federal authority relating to 
land acquisition from willing sellers for certain trails in the 
National Trails System. Indeed that will save time, money, and needless 
aggravation for all concerned. Listening to the concerns of landowners 
early on is a must if a project is to be brought to a mutually 
satisfying conclusion.
    Our ordeal commenced in the spring of 1978 when we received a 
letter from a temporary employee of the NPS, which was written on the 
letterhead of a local Outing Club (ENCLOSURE #1 IN SUBMITTED 
MATERIAL).* Although at that time we did not know he was on the NPS 
payroll. My opinion is this was subterfuge to mask the import of where 
we were headed. In the letter he told us he was writing to inform us 
that the NPS was in the process of finalizing the relocation of the AT 
through Hanover and our village of Etna and it was his job to meet with 
affected landowners to explain what was happening. Prior to this there 
apparently had been some public meetings to discuss the relocation of 
the AT but most affected landowners like us were not informed about 
these meetings despite the fact the NPS knew who we were.
---------------------------------------------------------------------------
    * All enclosures have been retained in subcommittee files.
---------------------------------------------------------------------------
    When my neighbor Kevin Cunningham (another impacted landowner) and 
I got involved in the process (fall 1979) we asked the NPS if they had 
seriously considered an alternate route for the AT through Hanover 
going north rather than south because in doing so they would be able to 
permanently protect the Connecticut River riverbank and eventually 
proceed through land already owned by the Federal Government. They 
admitted they hadn't but if we wanted to map a northern route they 
would consider it. We were given a set of maps and 30 days to submit 
our recommended trail. We accomplished this and the NPS did an 
environmental assessment of our trail (ENCLOSURE #2 IN SUBMITTED 
MATERIALS--PARTIAL) as well as their southern trail route. A kangaroo 
court was organized to judge the routes most of whom were already on 
record as opposing our route and some from organizations that had 
helped map the NPS route. We were not asked to participate in the 
assessment. Needless to say our northern route got dinged and the NPS 
moved forward with securing a footpath on their preferred route.
    That was the point when the real battle began because the NPS 
assumed they had the support of the community and that coupled with the 
sword of eminent domain would force affected landowners like us to 
accept their dictates. In our case they were proposing a 600 ft. 1,000 
ft. corridor through the middle of our 70 acres offering us a 40 ft. 
corridor through to access our land on the other side of the footpath.
    In the ensuing two years we had several meetings and hikes on our 
land with NPS representatives with the goal being to find a footpath 
that would be mutually agreeable. But the NPS would not agree to move 
the Trail closer to our back boundary where our land would not be 
segmented. I wondered why there was such resistance since the neighbor 
on the other side also owned a large forested lot. It seemed reasonable 
that the Trail corridor could be shared so our land would not be 
segmented.
    One day during this time period while inspecting AT files in 
Concord, NH I found the answer why the NPS was reluctant to meet our 
request. ENLOSURE #4 IN SUBMITTED MATERIALS is a copy of a letter 
written by my neighbor (a college president in upstate New York) in 
March 1978 to the AT Project Manager pleading that his land be spared 
the ravages of the Trail. Note that date was before we ever knew about 
the Trail crossing our land so he evidently had a heads up somehow. 
This was another example of folks in influential positions getting 
preferential treatment.
    Eventually after we hit a brick wall with negotiations in November 
1982 our family received a letter (ENCLOSURE #4 IN SUBMITTED MATERIALS) 
from the NPS indicating that our land would be taken from us by eminent 
domain. Shortly before this letter arrived we made contact with Chuck 
Cushman a National Park System Advisory Board Member and explained our 
plight to him. He investigated the situation and was able to secure for 
us the ``record of negotiations, appraisal, and other material'' 
referred to in Enlosure #4. He told us we had to rebut this report as 
soon as possible and he provided us a name and address in the 
Department of Interior to submit our rebuttal to (ENCLOSURE #5 IN 
SUBMITTED MATERIALS). We did that and the result was the Interior 
Department instructed the Justice Department to put a hold on our 
condemnation until they investigated further.
    Eventually the Interior Department requested me and my neighbor 
Kevin Cunningham to come to Washington and meet with them, 
representatives from the Interior and Justice Departments, and the AT 
Project Director and his staff. We did that and what ensued was more or 
less a debate while Interior and Justice observed and intermittently 
injected questions. We had brought with us a map with a proposed route 
for the AT through our lands and the lands of many of our affected 
neighbors which situated the AT on our lands where it was compatible 
with the needs of the Trail as well as where it had the least impact on 
our uses of the land. At the end of the day we were requested to return 
to Hanover to work with our neighbors and now a more amenable NPS to 
accomplish the relocation of the AT through Hanover. Eventually this 
came to pass.
    In our case the AT did move to the back quarter of our property so 
our property would not be segmented and it did include a small part of 
my reluctant neighbor's land. We sold 150 ft. of land on each side of 
the footpath and leased 100 ft. more on each side. As you can see there 
was significant compromising by the NPS and us. Plus we retained 
``agricultural rights'' which means we can continue to tap our maple 
trees, harvest firewood and timber, and plant an orchard in an open 
part of the land. We could also pasture animals if we decide to raise 
sheep again. Plus my wife and I are avid cross-country skiers and we 
have connecting trails with the AT. Our neighbors enjoy the trails with 
us. Often when I am out cutting firewood I encounter hikers and the 
relationship is cordial as it should be. In fact, I unofficially keep 
the footpath clear of fallen branches and trees with the help of my 
trusty chainsaw.
    In conclusion I want to thank you all for the opportunity to be 
here today. It has been my goal to illustrate how listening to the 
needs of landowners can result in a happy ending if and when more land 
is needed to protect trails. This can happen when the sword of eminent 
domain is kept in its sheath and negotiation is used as the ultimate 
tool.

    Senator Thomas. Thank you very much, thanks to all of you.
    Mr. Werner, do you feel as if private property rights are 
sufficiently protected as trails are developed under this 
system that we have?
    Mr. Werner. I think, Senator, the legislation that you have 
before you, either S. 324 or S. 651, which models what has been 
the practice under the new trails authorized under the National 
Trails System, yes, it does protect private property rights.
    I mean, I have experience, again, with the Ice Age Trail in 
Wisconsin in which people have negotiated with landowners, 
tried to come up with a price, tried to come up with an agreed 
right-of-way, and there because there was no eminent domain 
involved, the landowners ultimately said no, they did not 
accept it and no deal happened, the trail did not go on the 
land.
    Senator Thomas. The other thing Ms. Bower mentioned is 
public lands where there is generally a commitment for multiple 
use, and even though you are not dealing with a landowner, you 
are limiting the use of those lands to some extent. Do you 
agree with that?
    Mr. Werner. Yes. As you well know, we have public lands for 
a number of different uses and even those that are most open 
for multiple use, you know, not every use works on every 
individual foot of land or piece of land. And I think it is 
important that we have protections for certain kinds of uses in 
certain places, and that we allow other uses in other places on 
the public lands.
    And I think part of what I was trying to express to you 
before was that my understanding of the authority with the 
National Trails System Act and the practice in Wyoming by the 
Bureau of Land Management has been to accommodate the adjacent 
uses to, say, the Continental Divide Trail or the historic 
trails by allowing rights-of-way to cross and things like that.
    So I think there are sufficient safeguards. I note also 
that since the hearing a year ago, or approximately a year and 
a month ago on similar legislation, that OCTA, Oregon-
California Trail Association, at that time agreed to work with 
the Petroleum Association of Wyoming on private land issues, 
and some of the public lands areas were put in historical 
trails. And they have been monitoring, frankly, the Bureau of 
Land Management since, and we supplied you with a letter that 
indicates that, I think there have been over 120 permits issued 
by the Bureau of Land Management for oil and gas, other mineral 
leasing along the historic trails in Wyoming. And of those, I 
think only seven had some mitigation requested, and basically 
there has been no holdup on the use of the oil and gas.
    Senator Thomas. What changes would you make, Ms. Bower, in 
terms of our processes here?
    Ms. Bower. Senator, our major concern, and Mr. Werner is 
right, we have been working very hard with the Oregon-
California Trail Association in Wyoming. The process for us is 
not about the designation of the trails. The process for us 
comes--we can protect the actual trails; in fact, the oil and 
gas industry provides more protection measures for the trail 
than most uses on public lands. The problem that we have has 
been this idea of a viewshed protection. In Wyoming we have a 
lot of open space, Senator, and the majority of these four 
congressionally designated trails go right through a very rich 
gas project in the Green River basin.
    So we have concerns with the management prescription. We 
are working with the Bureau of Land Management to deal with 
those. Once we figure out what the game is and how those will 
be managed, then we can have an idea about further designation 
of the trails.
    The other problem that we have, Senator, as you well know, 
is the land grant area in southern Wyoming. Every other section 
is private property intermixed with Federal land. When you 
start looking at a designation with such a checkerboard land 
pattern, it becomes a concern. The largest land owner in that 
area happens to be Arco Petroleum. The concern has been, when 
you have the easements across the private property, what 
happens if the public strays off the property and they are 
injured? Does that then become an issue for the private land 
owner to deal with because he allowed the public to cross his 
land?
    So I think there are other things that need to be looked at 
in dealing with willing seller.
    Senator Thomas. What changes would you make after your 
experience, Mr. Cioffi?
    Mr. Cioffi. I think basically just what I said. Bring the 
landowners in early on and look at all of the options. Because 
in our case, we were willing to donate land to the Park Service 
for the trail if they had gone where we wanted. And in fact, 
there was a piece of family land up along beside us that we 
could not even identify, which we allowed them to take by 
eminent domain because nobody knew where it was, but we knew 
the trail part of it went through there.
    Senator Thomas. Mr. Werner, do you have any view, and I 
know this is a difficult issue, but do you have any view of 
where we are in terms of trail development, in terms of the 
future? Are we reasonably well developed in the trails that 
will be there, are we just beginning, or what do you see 
happening in terms of trail designations?
    Mr. Werner. In terms of the 23 authorized national scenic 
routes or historic trails, we figure that they are only about 
half complete and by complete I mean----
    Senator Thomas. Those 23 are half complete?
    Mr. Werner. Those 23. And by complete, what I mean is that 
there are only two of those trails, two of the eight scenic 
trails, and those are the original two, the Appalachian and the 
Pacific Crest, where the user can actually follow the trail 
from one end to the other on a mostly off-road route that is 
safe for use. The other 6 scenic trails, like the North Country 
Trail that was mentioned by Senator Levin, and Continental 
Divide Trail through your State, range anywhere from about 70 
to 80 percent complete, to less than half complete, meaning 
that someone could actually follow them all the way on the 
ground off road.
    Of the historical trails, there are these specific sites, 
these significant sites and segments, and of the nine trails, 
there are five historic trails involved with the legislation 
before you, and there are some 700 sites that are identified. 
Only about one quarter of those sites are actually really 
available for the public.
    Senator Thomas. So what is your view of where we are going, 
are we going to have 10,000 trails?
    Mr. Werner. No. Frankly, you have asked this question a 
couple times, and the answer I give you is that the Partnership 
for the National Trails System, our association has taken the 
position that we do not really support the designation or 
authorization of more trails until we get the trails that are 
currently authorized more complete, more available for the 
public to use.
    And I know you have asked the question a couple of times 
about the studies, and I believe that actually in terms of the 
historic trails and the scenic trails, there are probably more 
trails that have been studied and rejected than have actually 
been authorized by Congress, so that process does actually 
work.
    Senator Thomas. I would be interested in seeing those 
numbers. You may be right, but I have never seen one turned 
down.
    Mr. Werner. Well, the problem may be more with Congress, 
frankly, than----
    Senator Thomas. Maybe so.
    Mr. Werner. But I appreciate very much the point that you 
are making about the vision, because we talk about that in the 
trails community quite frequently and we do have a concern that 
we do need more trails in some places, but that we need to 
finish what we have already begun. And you hear that all the 
time in the parks and----
    Senator Thomas. Set some priorities.
    Mr. Werner. Yeah.
    Senator Thomas. It is interesting, and I have mentioned in 
this North Country Trail, I can hardly imagine that anybody is 
going to get on that thing and walk all the way around through 
Cincinnati and do that 3,200 miles.
    Mr. Werner. I understand, but I have to tell you that there 
actually are several people who have already walked the entire 
route of it, even though it is largely unmarked.
    Senator Thomas. Because several people have done it, that 
is hardly a justification. Now Appalachian, I understand that 
is what that is for. I do not know, maybe there are. It would 
just be curious to me, but at any rate----
    Mr. Werner. One of the benefits for a trail in the East, 
and you will appreciate that we do nit have the amount of 
public land for recreation that you do have in your beautiful 
State in the West----
    Senator Thomas. We have sometimes more than we would like.
    Mr. Werner. I understand. But we found that with the Ice 
Age Trail in Wisconsin, and I think the same would be true with 
the North Country Trail, is that there are many, many more 
people, and that is true with Appalachian as well, who go out 
and hike a few miles of it rather than the whole distance, but 
the fact that it is part of a continuous longer trail is part 
of the extra mystique that they get out of being on that trail.
    Senator Thomas. You know, I am not complaining or objecting 
to what you are saying, but we have got to have some concept of 
what we are doing and where we are going, and where we ought to 
put our emphasis, whether it is on shorter trails in more 
places where more people can use it or whether it is adding 
endless trails somewhere that people only use parts of. I do 
not know the answer to that, but I think it is important that 
we look at it. We are just about through here.
    Dru, what size of--how do you see the width of the 
Continental Divide Trail?
    Ms. Bower. Senator, I will be honest in that I have not 
studied the Continental Divide Trail. We as an industry have 
been operating under the quarter mile or visual horizon, 
whichever is less, on each side of the trail, and that seems to 
be adequate.
    We have also, just so you know, we are working with the 
Oregon-California Trail Association to identify and ask them to 
identify truly pristine sites that have not been compromised, 
and that we would work with them and work with the Federal 
agencies for protection measures outside of that quarter mile, 
but not to identify the entire trail.
    Senator Thomas. I see. Mr. Cioffi, how would you better--
you know this whole concept, the Secretary of the Interior has 
indicated a movement towards including more local people in 
these kinds of decisions, and private groups are very much 
involved. Is there a process that you envision that, I think 
the way it is now, the groups that are involved are people that 
are advocating for the trail things as opposed to the general 
public maybe. What would you do about that, how would you get 
more local involvement?
    Mr. Cioffi. Well, in our area is an organization called the 
Upper Valley Land Trust, and they work with landowners when 
something significant needs to be acquired in the area, as an 
example, a farm along the Connecticut River. Likewise, they are 
taking a look at perhaps in some places, widening the 
Appalachian Trail and purchasing the land. So working with 
organizations like that, within local communities, every 
community has that, and these folks understand the value of 
land and appreciate the rights of landowners, as well as if you 
are going to have the trail, fine, but let us do it with less 
impact.
    Senator Thomas. We are very proud of the trails and we are 
very proud of the trail center that we have there now and so 
on, but sometimes I do think there is a little difference 
between those people who are in the trail business as opposed 
to just the general community in which they are working.
    Mr. Werner. Senator, I held this up before. This study for 
one section of the Ice Age Trail in Wisconsin is typical of the 
process that has been used by the National Park Service, the 
Wisconsin Department of Natural Resources, and the Ice Age Park 
and Trail Foundation as the nonprofit partner, where a study 
has been done where all of the landowners within the study 
corridor have been notified by letter about the interest in 
involving, potentially involving their land in the route of the 
trail, public meetings have been held in each of the townships 
involved as well as general public meetings, comments have been 
solicited, and then they go through the process of refining all 
of that, coming up with a corridor, this is their opportunity 
corridor. It then goes out to public hearing again to the 
public in general and to the county boards involved, and then 
to the State's Natural Resources Board for approval. So they 
have done a lot of public outreach of the sort that Mr. Cioffi 
is talking about.
    And the interesting thing about it is, each of those 
processes that I am aware of, what ends up happening is a 
number of landowners who for whatever reason really like these 
trails, come forward and say I would be willing to sell my land 
if you would be interested in buying it.
    Senator Thomas. Understood.
    Mr. Cioffi. Senator, I want to make a little comment about 
something like the Upper Valley Land Trust. Sometimes they do 
not have to buy the land, the land is given to them and they 
manage it.
    Senator Thomas. Sure, I understand.
    Well, I want to thank you, and I do want to make it clear 
that I am supportive of trails, I think it is a good thing. I 
do believe, however, that the agencies that are basically 
responsible need to have a little more of an idea of where they 
are going and what the final result will be. We constantly hear 
about having more jobs than they have the resources to handle, 
and so on and so on. So there needs to be some priorities set 
there and some standards, I think, some sort of a measurement 
as to what, you know--often these efforts are driven really by 
local economic interests and that is fine, but I do not know 
that that fits into a national system particularly.
    So, at any rate, I think it is a challenge for us, I hope 
you continue to work on it, strengthen our program, make it 
work with other people, and I appreciate very much you being 
here. Thank you so much. The hearing is adjourned.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]

                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Jeanne and Bill Watson, Trails Liaison Co-Chairs, Oregon-
 California Trails Association, in Support of Statement by Gary Werner
    Mr. Chairman and members of the Subcommittee on National Parks 
thank you very much for providing this opportunity to include our 
testimony with that of Executive Director Gary Werner, Partnership for 
the National Trails System

     SENATE BILL 635--PIONEER NATIONAL HISTORIC TRAILS STUDIES ACT

    The Oregon-California Trails Assn. is an active member of the 
Partnership for the National Trails System and joins in strongly 
supporting S. 635, The Pioneer National Historic Trails Studies Act. 
The wording of this bill matches that S. 213 unanimously passed by the 
Senate in the final minutes of the 107th Congress.
    S. 635 would authorize studies of additional routes/cutoffs on the 
Oregon, California, Mormon Pioneer and Pony Express National Historic 
Trails to determine which ones meet the criteria of the National Trails 
System Act and deserve later Congressional authorization for addition 
to the National Trails System.
    As pointed out by Congressman Doug Bereuter in his testimony: No 
condemnation of private lands or Federal leases is to be contemplated 
to add any of these proposed study routes to the trails. Although the 
National Park Service is supportive of efforts to examine these 
additional routes, it has determined that Congressional legislation is 
needed to provide authorization.
    A National HISTORIC Trail is a series of significant sites and/or 
segments connected by adjacent roads or highways. On Private Land, if 
the Historic Trail remnants are j under a plowed field or the owner 
will not grant public access, the adjacent road or j highway is used to 
reach the next trail segment open to the public. This is different from 
a National SCENIC Trail where you can hike its entire length or a 
segment or part of a segment.
    OCTA President Randy Wagner, Cheyenne, Wyoming, recently pointed 
out to Senator Thomas that nothing in the National Trails System Act 
applying to National Historic Trails gives the government any rights 
to: condemn private land or land leases; to force access through 
private property or land leases; or in any way to trample on landowners 
rights.

                  COOPERATION WITH PRIVATE LANDOWNERS

    The Oregon-California Trails Assn. (OCTA) works with private land 
owners and managers, calling attention to the importance of these 
trails, obtaining permission to mark trail ruts and emigrant graves, 
and requesting access to trail sites for special occasions. We call the 
land owners attention to the Site Certification Agreement provision of 
the National Trails Act where they designate conditions of public 
access: every day, one day a year and what date or no public access. 
This program protects them from liability for giving public access. 
Many landowners along the Oregon and California trails participate in 
this Certification program.
    Each year OCTA holds their convention at a different place along 
the trail. This year we will meet in Manhattan, Kansas, to see the 
results of a cooperative venture between OCTA's KANZA chapter, the 
National Park Service and three landowner families to do side-scan 
radar studies of emigrant grave sites on the landowners' property. The 
three families have preserved these graves for 160 years as part of 
their family heritage. While OCTA is in Manhattan, other landowners 
will show us and tell us about the trail ruts, stream crossings, etc. 
they protect on their land.
    During each convention, OCTA presents Friend of the Trail (formerly 
Rancher of the Year) awards to private land owners/managers in 
recognition of the work they have done to preserve emigrant graves, 
trail segments, stream crossings, etc on their land. OCTA previously 
presented 50 of these awards and more will be given in Manhattan, KS, 
in August.
    A number of years ago, a retiring rancher sold an easement to OCTA 
covering the noted California Hill Trail ruts in Nebraska. The easement 
price was donated by an OCTA member. After the deal was closed, the 
retired owner's son took over the ranch and found that the only water 
well on the entire property was on our easement. Without water, the 
entire ranch was unusable for cattle grazing. OCTA traded access to the 
well water to the rancher for a cattle proof fence and roadside 
pedestrian gate. Visitors were warned that if the large bull was 
standing in the trail ruts, they waited until the bull moved off before 
walking the ruts. Subsequently, OCTA transferred this easement to the 
Nebraska Historical Society.
    The owner of a truck stop near Fernley, Nevada, had a beautiful 
segment of the California Trail on his land and away from the truck 
stop. A three-way agreement was reached where the Bureau of Land 
Management obtained a fee simple easement covering the trail ruts and 
the California/Nevada Chapter of OCTA agreed to maintain and mark this 
easement for public use.

                 COOPERATION WITH FEDERAL LEASEHOLDERS

    In 1985, OCTA members worked with EXXON to minimize the number of 
times a proposed pipeline would cross the Oregon Trail near South Pass. 
EXXON modified their proposed route to cross the trail only once and 
later wrote this up in their corporate magazine as an example of good 
neighbor cooperation to protect this landmark.
    In March 2001, representatives of Wolverine Oil met with the Bureau 
of Land Management, National Park Service, Wyoming State Historic 
Preservation Officer and OCTA to discuss plans to drill exploratory 
wells on federal land leases near the Sandy Crossing and South Pass. 
The Wolverine President proposed that on sites where drilling would be 
detrimental to the Oregon, California, Mormon Pioneer and Pony Express 
National Historic Trails, they could drill laterally and still be at 
least 1/4 mile from the trail as required by the BLM. They successfully 
drilled wells on several sites following the BLM requirements and 
providing another example of cooperative multiple use of public lands.
    During the past year, OCTA has worked very closely with the Wyoming 
Bureau of Land Management to promptly review 140 permit applications 
that might impact the Oregon and California Trails. The Bureau of Land 
Management and/or the Wyoming State Historic Preservation Officer 
slightly delayed a hand full of applications for mitigation. However, 
OCTA has not delayed any permit application nor caused any economic 
hardship for any permitee.

                         SHARED TRAIL SEGMENTS

    A number of the routes/cutoffs proposed for study are already part 
of an authorized National Historic Trail. For example, the APPLEGATE 
ROUTE from northwest Nevada and up to Salem, Oregon, is an authorized 
part of the California Trail. The Applegate was used during the 
California gold rush and also was the Southern route to Oregon. It 
crosses 300 miles through southern Oregon, yet Oregon Trail markers 
cannot be installed. This study would justify the addition of the 
Oregon Trail logo to that route, while not adding any miles to the 
trail. During the Oregon Trail sesquicentennial, the Oregon Legislature 
passed a resolution urging that this route be authorized for the Oregon 
Trail. Today, only the California Trail logo is allowed on the trail 
marker outside the Oregon State Capitol. Authorization of this Oregon 
Trail study would lead to the correction of this problem.
    A portion of the California Trail from WESTERN WYOMING to SALT LAKE 
CITY was also used in the 1860s by MORMON PIONEER covered wagons that 
went to Rollins, Wyoming, to pick up emigrants at the end of the 
railroad and transport them to Salt Lake City. If the study is 
authorized and meets the Trails Act criteria, the Mormon Pioneer Trail 
logo would join the California Trail logo to mark this segment and no 
new trail miles would be created.

                     CALIFORNIA TRAIL STUDY ROUTES

    In the MISSOURI VALLEY, subsequent to the 1987 completion of the 
feasibility study, extensive diary research plus ground searches by 
OCTA members located numerous swales, ruts, remnants of river and creek 
crossings, etc. Many of these new sites are on private land and have 
been preserved for 160 years by landowners' families. This research 
identified 19 routes that are proposed for study, most of which will be 
multi-use shared routes. For example, the FORT LEAVENWORTH to BIG BLUE 
RIVER Route in Kansas was used by Oregon and California bound emigrants 
and by Pony Express riders.
    Seven CENTRAL ROUTES are proposed for study including the CHEROKEE 
TRAIL which was heavily used by Native Americans, Anglos and blacks 
from the Oklahoma Territory heading west for the California gold 
fields. During the March 2002 Senate hearing on S. 213, members of the 
Cherokee Nation and Trail of Tears Assn. stood in support of this 
study. In Wyoming, the Cherokee Trail is protected by the Bureau of 
Land Management under the Historic Preservation Act even though not yet 
part of the National Trails System.
    Eight WESTERN ROUTES are proposed for study. Most were omitted from 
the original Feasibility Study or were ordered to be deleted from the 
Comprehensive Management Plan. For example, the Solicitor's Order 
deleted the BIDWELL-BARTLESON Route from the California Trail 
Management Plan. On May 12, 1841, the Bidwell-Bartleson Company left 
from the Kansas City area. They did not have a map showing the way to 
California because none existed. Thirty-one men and one woman (Mrs. 
Nancy Kelsey) with an infant daughter followed the Oregon Trail. About 
560 miles west of Fort Laramie, they left the Oregon Trail to find a 
route across the unknown territory stretching to California. After 
leaving their wagons in the desert and wandering lost for several days, 
the Bidwell-Bartleson party finally reached the Sierra Nevada 
Mountains. They crossed somewhere near the present day Sonora Pass and 
arrived in California on October 30, 1841. The accomplishments of the 
Bidwell-Bartleson company include those of Nancy Kelsey who became the 
first white woman to cross the Sierras, and are widely celebrated.

                       OREGON TRAIL STUDY ROUTES

    When the Oregon National Historic Trail was authorized in 1978, it 
was treated as Point-to-Point, similar to a Scenic Trail. This action 
ironically excluded the WHITMAN MISSION ROUTE which was first traveled 
in 1836and was THE Oregon Trail. As Narcissa Whitman wrote in 1840: 
``We are emphatically situated on the highway between the States and 
the Columbia River.'' Narcissa and her husband, Dr. Marcus Whitman, 
along with the Rev. Henry Spaulding and wife, Eliza, were Presbyterian 
missionaries from upper New York state. Narcissa and Eliza, the first 
white women to cross the Rockies, are remembered with a special marker 
at South Pass. Their company took a two-wheeled cart to Oregon; proving 
wheeled vehicles could make the trip successfully. The Whitman Mission 
Route served as the main stem of the Oregon Trail during the earliest 
years of the mass overland migration but was later bypassed and omitted 
from the 1978 authorization.
    In 1843-44 the UPPER COLUMBIA RIVER ROUTE became the only trail to 
the Willamette Valley. A day's horseback journey west of the Whitman 
Mission, it started as a Hudson Bay Company post, where emigrants built 
rafts to float down the river to The Dalles, a treacherous trip with 
loss of lives and belongings. Then, Oregon bound emigrants found a way 
to bypass the Whitman Mission by following the Umatilla River to the 
Columbia, saving days of travel.
    From 1848 to 1884, the CUTOFF TO THE BARLOW ROAD made it easier for 
emigrants to cross the Cascades to reach Oregon City. This Cutoff saved 
100 miles as well as a week's travel time. Similarly. the FREE EMIGRANT 
ROAD was opened in 1853 and the COWLITZ RIVER ROUTE was established in 
1845. The NACHES PASS TRAIL opened in 1853, bypassed the Columbia River 
and the Willamette Valley and was known as the Walla Walla to 
Steilacoom Pioneer Citizens Trail.
    In Idaho, the NORTHSIDE ALTERNATE connected to the NORTH ALTERNATE. 
Also, the GOODALE CUTOFF began on the north side of the Snake River at 
Fort Hall and rejoined the Oregon Trail south of the Boise Valley.

                  CENSUS OF EMIGRANT DOCUMENTS (COED)

    The Oregon-California Trails Assn. has just created a copyrighted 
Emigrant Names CD database of approximately 66,000 names of emigrant to 
the west between 1832 and 1899. Based upon 2,263 diaries, journals, 
letters and reminiscences by pioneers researched by more than 200 
volunteers working over 15 years who collectively contributed more than 
100,000 hours to this project. Using this CD, researchers can search 
for a specific name during a time period and find information about the 
primary documents and their location.

                        FOUR TRAILS GIS DATABASE

    Volunteers continue mapping the Oregon, California, Mormon Pioneer 
and Pony Express Trails. They use OCTA's Mapping the Emigrant Trails 
Manual to identify trail segment conditions and hand-held Global 
Positioning System units, obtained under the National Park Service 
Challenge Cost Share program, to identify site and segment locations. 
The Park Service checks these readings for accuracy and adds them to 
the Four Trails GIS database managed by the University of Utah. New 
data and the Geological Survey 7.5 topo maps completed by OCTA and 
other volunteers are scanned and digitalized for the GIS database. 
These activities are part of a National Trails pilot GIS Database 
study.
    We urge passage of S. 635 the Pioneer Historic Trails Studies Act.
    s. 324--willing seller authorization for selected scenic trails
    The Oregon-California Trails Assn. supports passage of Senate bill 
S. 324, which would extend Willing Seller Authorization to the North 
Country and Ice Age National Scenic Trails. They need this Authority to 
achieve their Congressionally authorized objective.
    This bill does not affect the Oregon and Mormon Pioneer National 
Historic Trails, which do not have this authority or the California and 
Pony Express National Historic Trails, which do have this authority. 
These four trails share a common corridor along the Platte River basin 
and west through South Pass. Along that portion of these trails, there 
is little need for Willing Seller Authorization because no acreage is 
involved now. Only a few acres might be involved in the future and 
those concerns could be addressed through Fee Simple Easements.
        s. 651--willing seller authorization for national trails
    The Oregon-California Trails Assn. supports passage of Senate bill 
S. 651, which would extend Willing Seller Authorization to all National 
Scenic and Historic Trails that do not already have that Authority.
    This bill would extend Willing Seller Authorization to the Oregon 
and Mormon Pioneer National Historic Trails. However, OCTA does not 
currently have need to apply this Authority and has in previous 
situations used the Fee Simple Easement approach to these matters.
    Thank you for the opportunity to provide this testimony on behalf 
of the 4,000 members of the Oregon-California Trails Association.
                                 ______
                                 
  Statement of Celina Montorfano, Director of Conservation Programs, 
                        American Hiking Society
    Mr. Chairman and members of the subcommittee, I represent American 
Hiking Society's more than 5,000 members and the 500,000 members of our 
160 affiliated organizations. As the national voice for America's 
hikers, American Hiking Society (AHS) promotes and protects foot trails 
and the hiking experience. As the only national recreation-based 
conservation organization dedicated to establishing, protecting, and 
maintaining America's foot trails and a long-time partner and advocate 
of the National Trails System, AHS and its constituents have a very 
strong interest and stake in willing seller land acquisition authority 
for the national scenic trails included in S. 324 and S. 651. We urge 
the Subcommittee to recommend S. 324, as introduced by Senator Levin, 
and S. 651, as introduced by Senator Allard, for a vote in the Senate.
    S. 324 is critical to the protection and completion of the North 
Country, Ice Age, and Potomac Heritage National Scenic Trails. This 
bill amends the National Trails System Act to give these three national 
trails that lack federal land acquisition authority the ability to buy 
land from willing sellers to protect the trail corridors. S. 651 
provides willing seller land acquisition authority for all nine trails, 
including the Continental Divide National Scenic Trail, for which the 
federal agencies currently are prohibited from buying land.
    Enacting this authority will help protect critical resources along 
these congressionally-designated trails. Without this authority, trail 
managers' hands are tied when development threatens important links in 
the natural landscapes of the national scenic trails. The legislation 
would not commit the federal government to purchase any land or to 
spend any money but would allow managers to purchase land to protect 
the national trails as opportunities arise and as Congress appropriates 
the necessary funds.
    Willing seller authority will provide the following benefits:

 I. WILL HELP COMPLETE CRITICAL PORTIONS OF THE NATIONAL TRAILS SYSTEM

    Willing seller land acquisition authority will enable federal 
agencies to play an essential role in protecting resources and rights-
of-way critical to the integrity and continuity of the affected trails. 
Congress' intent to provide opportunities for outdoor recreation and 
appreciation and enjoyment of natural and historic resources may never 
be fully achieved along these trails without the agencies' ability to 
purchase land from willing sellers.
    The three national scenic trails included in S. 324 have a combined 
projected length of approximately 6,115 miles. Twenty years after their 
authorization, only about 2,421 miles slightly more than one-third of 
their length are protected so they will be permanently available for 
public use and enjoyment. The routes of these trails lie mostly across 
private land in eastern and midwestern states. The Continental Divide 
National Scenic Trail crosses mostly public land (over 95%) and is 
nearly complete. Willing seller authority will have little to no impact 
on the amount of land owned by the federal government in several 
western states.
    Without the ability to purchase permanent rights-of-way from 
willing sellers, it is highly unlikely that these trails will ever be 
the continuous pathways that Congress intended. In addition, willing 
seller authority can allow sections of these trails now located on 
roads to be moved to overland routes that will provide safer and better 
conditions for hikers and other trail users.

                   II. RESTORES BASIC PROPERTY RIGHTS

    S. 324 and S. 651 protect private property rights, as landowners 
along the affected trails are currently denied the right to sell land 
to the federal government if they desire to do so. Many landowners have 
offered to sell their land to the federal government to maintain the 
continuity of a national scenic trail. Individual families have 
voluntarily protected many unique and special sites along the trails 
for several generations. Granting willing seller authority will restore 
basic property rights to thousands of landowners.
    The decision to sell land is made freely by the landowner. The bill 
only authorizes land acquisition from willing-sellers. The owner must 
want to sell his land, and he/she must want to sell it to the federal 
government. Under the willing-seller bill, no contract is valid unless 
the landowner receives compensation for the land, reflecting basic 
contract law.
    Neither the National Trails System Act (NTSA) nor the amendments 
through this bill would affect the rights of landowners adjacent to the 
trails or within the trails' viewsheds. On the contrary, the Act 
includes some protections for neighboring landowners. Sec 7(a)(2) 
states that the appropriate Secretary, in selecting the rights-of-way, 
give full consideration to ``minimizing the adverse effects upon the 
adjacent landowner or user and his operation. Development and 
management of each segment of the National Trails System shall be 
designed to harmonize with and complement any established multi-use 
plans for the specific area in order to insure continued maximum 
benefits from the land.'' The Secretary must also allow reasonable 
access across the federal corridor for adjacent landowners.

 III. RESTORES THE ABILITY OF FEDERAL AGENCIES TO FULLY ADMINISTER THE 
                            NATIONAL TRAILS

    S. 324 and S. 651 restore a critical tool to the federal agencies 
that administer the national trails. The NTSA authorizes the 
administering agencies to collaborate with other federal agencies, 
state and local governments and private organizations in planning, 
developing and managing the trails; develop uniform standards for 
marking, interpreting and constructing the trails; regulate their use; 
and provide grants and technical assistance to cooperating agencies and 
organizations. The NTSA provides for these and other authorities to be 
applied consistently throughout the National Trails System; however, 
land acquisition authority--an essential means for protecting the 
resources and continuity that form the basis for these trails--has been 
applied inconsistently. This hinders effective administration of 
significant portions of the National Trails System. Progress on these 
trails is greatly impeded without the authority for federal land 
acquisitions or easements.
    Willing seller land acquisition authority for the National Trails 
System is nothing new. Congress authorized two trails before 1978 and 
twelve trails since 1983 with federal land acquisition authority, 
including the three newest trails established in 2000, the Ala Kahakai 
and El Camino Real National Historic Trails, and the Old Spanish 
National Historic Trail, established in 2002.
    S. 324 and S. 651 restore the ability of the federal agencies to 
carry out their responsibilities under the NTSA to protect nationally 
significant components of our nation's cultural, natural, and 
recreational heritage. One of the fundamental responsibilities given to 
the federal agencies is to protect the trails' important cultural and 
natural resources and to provide public access to and travel within 
them. Absence of willing-seller authority prevents the agencies from 
directly protecting resources along the affected trails.

           IV. PROVIDES REASONABLE CONSERVATION OPPORTUNITIES

    Willing seller land acquisition authority and subsequent 
appropriations from the Land and Water Conservation Fund (LWCF) will 
enable the federal agencies to respond to conservation opportunities 
presented by willing landowners. Each year landowners offer critical 
sites and segments of these trails for sale. The need and opportunity 
to use this authority will arise at different times for the various 
trails. For some, the authority may not be used for many years or only 
infrequently. For others the need for this authority is more acute and 
is likely to be used as soon as Congress makes it available.
    With willing seller authority, as provided by S. 324 and S. 651, 
federal agencies will only be able to buy land from willing sellers if 
Congress appropriates the funds for them to do so. Ultimate control 
over how much land may be purchased for the national scenic and 
historic trails remains with Congress through the annual appropriation 
process. Acquisitions will also be controlled by the limited funding 
available for acquisitions combined with the linear nature of these 
trails. However, if the administering agency can only protect a segment 
of trail corridor by acquiring a whole parcel larger than needed for 
the corridor, the NTSA allows agencies to exchange or dispose of land 
acquired as part of a whole tract that falls outside the area the area 
of trail acquisition. Agencies can also avoid expanding the federal 
estate through the use of easements over fee title acquisitions.

           V. PROTECTS LAND AND RECREATION RESOURCES AT-RISK

    In Wisconsin, scores of landowners along the Ice Age and North 
Country National Scenic Trails have offered to sell their land to the 
Wisconsin Department of Natural Resources, the Ice Age Park & Trail 
Foundation, North Country Trail Association, and to the National Park 
Service. The State has been purchasing trail lands from willing sellers 
for the past ten years, matching LWCF money with Wisconsin Stewardship 
Fund money. Despite successful efforts to protect segments of the 
trails, the process has been slow, and land values keep escalating. The 
State has neither the funds nor enough land acquisition agents to meet 
the demand of potential transactions. Portions of these two trails are 
at risk from housing development, especially near urban areas and 
countryside attractive for vacation homes. The federal agencies are 
needed as partners to add their staff and acquisition dollars to the 
efforts of state/local agencies and private organizations to protect 
the rights-of-way that will enable these trails to become the 
continuous footpaths Congress intended.
    Without willing seller land acquisition authority for these trails, 
our nation will lose irreplaceable and invaluable resources and 
experiences. The purchase of several properties in Dane County, a 
rapidly urbanizing area of Wisconsin, would have protected a nationally 
significant portion of the terminal moraine of the most recent 
continental glaciation, providing an excellent opportunity for the 
public to experience two remarkably dissimilar landscapes. Local 
government zoning authority preserved only a narrow corridor for the 
Ice Age Trail to weave among luxury homes in a new subdivision.
    Passing within fifteen miles of Grand Rapids, the North Country 
Trail will offer extensive recreational opportunities to residents and 
visitors of western Michigan. However, with only scattered public land 
holdings in the area, the trail is extremely vulnerable to closures and 
relocations as private lands change hands. In addition, rapidly 
expanding development threatens the trail corridor throughout lower 
Michigan, especially as more and more people build second homes in the 
region. In the Upper Peninsula, permanent easements are needed across 
vast expanses of corporate land to ensure permanent protection of the 
trail. These challenges represent common themes throughout the seven 
states linked by this 4,600-mile long national scenic trail.

                         VI. BENEFITS OF TRAILS

    Trails provide invaluable environmental, recreational, economic, 
health, and transportation benefits to the nation. They offer family 
oriented recreation in a safe environment. By increasing physical 
activity, trail use such as walking/hiking reduces the risk of life-
threatening diseases such as heart disease, diabetes, cancer and other 
serious medical conditions. Trails provide economic vitality to 
communities, increasing property values and enhancing regional tourism. 
They also offer significant educational value as outdoor classrooms for 
natural and cultural history. Hiking represents one of the fastest 
growing recreational activities--75 million Americans hike regularly or 
occasionally according to the Outdoor Industry Association's 
Participation Study 2001. In 2001, sales of outdoor gear, clothing, 
footwear, and other accessories amounted to more than $18 billion.

                               CONCLUSION

    American Hiking Society is very grateful to Senator Levin and 
Senator Allard for introducing S. 324 and S. 651, respectively. Last 
year, identical legislation to S. 324 passed in the Senate by unanimous 
consent, and identical legislation to S. 651 passed in the House by a 
409-3 vote. Willing seller bills have received bipartisan support, are 
generally considered noncontroversial, and are critical to the 
protection and completion of the National Trails System. We urge the 
National Parks Subcommittee to recommend these bills for a Senate vote 
as soon as possible. American Hiking appreciates the opportunity to 
provide these comments in support of S. 324 and S. 651 for the hearing 
record. Thank you for your consideration. April 18, 2003
                                 ______
                                 
    Statement of Deborah Stewart-Kent, Executive Director, Florida 
                           Trail Association

     SENATE BILL 324--WILLING SELLER AUTHORITY FOR NATIONAL TRAILS

    Mr. Chairman and members of the Subcommittee on National Parks: The 
Florida Trail Association strongly supports Senate Bill 324, the 
National Trails System Willing Seller Act, as introduced by Senator 
Levin and urges you to promptly recommend it for passage by the Senate. 
Senate Bill 324 provides authority to Federal Agencies to purchase land 
and interests in land from willing sellers to help preserve permanent, 
continuous rights-of-way for the Ice Age, North Country, and Potomac 
Heritage National Scenic Trails, components of the National Trails 
System authorized by Congress 20 or more so years ago. S. 324 is an 
important remedial bill that begins to correct a gross disparity and 
inconsistency in the National Trails System Act.
    The Florida Trail Association is the USDA Forest Service's primary 
partner for the Florida National Scenic Trail, a 1,300-mile trail 
running the length of Florida from Big Cypress National Preserve to 
Gulf Islands National Seashore. When Congress designated the Florida 
Trail as a National Scenic Trail twenty years ago, Congress granted the 
USDA Forest Service authority to purchase land from willing sellers 
outside of Federal lands. This authority has been instrumental to the 
USDA Forest Service's ability to purchase land from willing sellers to 
protect the route of the Florida Trail. To date, the USDA Forest 
Service has acquired three tracts of land to protect 2.8 miles of the 
FNST (615.6 acres) in the Apalachicola National Forest, St. Marks 
National Wildlife Refuge and a tract near Orlando. Additionally, eight 
other acquisition projects are underway with willing sellers that 
should result in the acquisition of an additional 1,190 acres to 
protect 8.5 miles of the FNST. The Forest Service has also initiated 
acquisition of an additional 5,000 acres that would protect 60 miles of 
trail corridor. With this simple change in the Act, similar strides can 
be made in protecting the routes of the nine other national scenic and 
historic trails that do not have this authority.
    The Florida Trail Association hereby adopted the following trail 
policy which is incorporated into the Trail Manual for the Florida 
Trail System.

          The Florida Trail Association supports the acquisition of 
        land to provide a permanently protected route for the Florida 
        National Scenic Trail. The FTA supports the limited land 
        acquisition authority that federal law grants to the USDA 
        Forest Service to acquire land for the Florida National Scenic 
        Trail. The National Trails System Act, P.L. 90-543, 82 Stat. 
        919, as amended; 16 U.S.C. 1241, allows the Federal government 
        to purchase of land outside of boundaries of Federally 
        administered areas only with the consent of the landowner. It 
        is FTA's goal that the Florida National Scenic Trail will be 
        completed in partnership with landowners and willing sellers.

    The Florida Trail Association urges you to give prompt 
consideration and passage of this legislation important for protecting 
private property rights, restoring consistency to the National Trails 
System Act and for providing Federal agencies with authority to protect 
important and cultural resources and continuity of America's premier 
trails. We believe that this authority is essential to the completion 
and success of the National Trails System.

     SENATE BILL 635--PIONEER NATIONAL HISTORIC TRAILS STUDIES ACT

    The Florida Trail Association strongly supports S. 635, The Pioneer 
National Historic Trails Studies Act, and requests that you request the 
Senate Energy and National Resources Committee to recommend adoption of 
S. 635 to the full Senate. This bill authorizes the National Park 
Service to update the Feasibility Studies for the Oregon, California, 
Mormon Pioneer and Pony Express National Historic Trails by examining 
additional routes and cutoffs of these trails for possible inclusion in 
the National Trails System. Our National Trails System should be in the 
forefront of recognizing the full stories of our past and protecting 
the physical reminders of those stories. The Florida Trail Association 
urges you to recommend adoption of S. 635 to your colleagues on the 
Energy and Natural Resources Committee and to the full Senate.
    The Florida Trail Association appreciates prompt consideration you 
have given to S. 324 and S. 635 and the opportunity to provide these 
comments in support of them for the hearing record.


</pre></body></html>
